                                                                             Report No. DODIG-2013-138




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 23, 2013




                     The U.S. Air Force Academy Lacked
                     Effective Controls Over Heritage
                     Assets and Guest House Inventories,
                     and Inappropriately Solicited and
                     Accepted Monetary Gifts




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       The U.S. Air Force Academy Lacked Effective Controls
                                       Over Heritage Assets and Guest House Inventories, and
                                       Inappropriately Solicited and Accepted Monetary Gifts


September 23, 2013                                     Findings Continued

Objective                                              gifts. This occurred because the USAFA Superintendent did not
                                                       appoint the appropriate property accountability personnel. As a
We determined whether the U.S. Air Force               result, guest house furnishings are subject to misuse, loss, and theft.
Academy (USAFA), its nonappropriated fund
instrumentalities (NAFIs), and its supporting          USAFA Development and Alumni Programs (CMA) officials
nonprofit    organizations    were     properly        inappropriately entered into contracts and modifications
accepting, recording, reporting, and disbursing        using monetary gifts without proper authority. This occurred
donations, gifts, and nonappropriated funds.           because USAFA CMA officials were unaware that the Government
                                                       Accountability Office (GAO) and Federal Acquisition Regulation

Findings                                               (FAR) criteria applied to gift fund contracts. As a result,
                                                       CMA officials created unauthorized contracting actions valued at
USAFA, its NAFIs, and its supporting nonprofit         approximately $387,000.
organizations had adequate controls over some
aspects of their gift and nonappropriated fund         The Air Force Academy Athletic Association (AFAAA) personnel
processes. However, improvements could be              inappropriately solicited, accepted, recorded, and reported
made regarding accepting, recording, reporting,        over $532,000 in monetary gifts. This occurred because AFAAA
and conserving heritage assets; recording              personnel were not familiar with DoD and Air Force requirements
guest house inventories; awarding contracts            prohibiting the solicitation of gifts. AFAAA accounting staff also
using monetary gifts; soliciting and accepting         lacked training and experience necessary to accurately record and
monetary gifts; and reporting nonmonetary              report the donations. As a result, AFAAA overstated its monetary
gifts of services.                                     gift revenue by over $532,000.

USAFA did not have effective controls for              Neither USAFA nor the Air Force General Counsel reported volunteer
accepting, recording, reporting, and conserving        gratuitous service agreements used to fund academic chairs to
heritage assets. This occurred because the             Defense Finance and Accounting Service (DFAS). This occurred
USAFA Superintendent, the National Museum              because general counsel staff believed USAFA was responsible for
of the U.S. Air Force (NMUSAF) Director, and           reporting these gifts since USAFA benefited from these gifts. As
the USAFA Director of Communications did               a result, neither USAFA nor the general counsel reported at least
not provide adequate oversight of the USAFA            $596,506 worth of nonmonetary gifts of services to DFAS.
Heritage Program. As a result, heritage assets
are subject to misplacement, deterioration,
destruction, and theft.                                Recommendations
                                                       Among other recommendations, USAFA should review the actions
USAFA did not have adequate records for guest          of personnel in the USAFA CMA office regarding the deficiencies
house furnishings purchased with monetary              identified in this report, including controls over heritage assets,



Visit us on the web at www.dodig.mil


                                                                             DODIG-2013-138 (Project No. D2011-D000FP-0269.000) │ i
                                       Results in Brief
                                       The U.S. Air Force Academy Lacked Effective Controls
                                       Over Heritage Assets and Guest House Inventories, and
                                       Inappropriately Solicited and Accepted Monetary Gifts



  Recommendations Continued

  guest house furnishings, and contracts using gift funds. On
  the basis of that review, USAFA should take appropriate
  management action, including holding the necessary officials
  accountable.


  Management Comments and Our
  Responses
  Management comments were responsive. Please see the
  Recommendations Table on the next page.




ii │ DODIG-2013-138 (Project No. D2011-D000FP-0269.000)
Recommendations Table
                                             Recommendations               No Additional
               Management                    Requiring Comment           Comments Required
Under Secretary of Defense (Comptroller)/                        F.1
Chief Financial Officer, DoD
Director, National Museum of the                                 B.3.a and B.3.b
U.S. Air Force
                                                                 B.1; C.1.a, C.1.b, C.1.c, C.1.d, C.1.e;
Superintendent, U.S. Air Force Academy                           E.1.a.(1), E.1.a.(2), and E.1.b
                                                                 B.2.a, B.2.b, B.2.c.(1), B.2.c.(2),
Director of Communications, U.S. Air Force                       B.2.c.(3), B.2.c.(4), B.2.d, B.2.e,
Academy                                                          and B.2.f
Chief, U.S. Air Force Academy, Development                       D.1; F.2.a and F.2.b
and Alumni Programs
Director, U.S. Air Force Academy,                                D.2
10th Contracting Squadron




                                                                 DODIG-2013-138 (Project No. D2011-D000FP-0269.000) │ iii
                                               INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                              4800 MARK CENTER DRIVE
                                           ALEXANDRIA, VIRGINIA 22350-1500


                                                                                        September 23, 2013

             MEMORANDUM FOR DISTRIBUTION

             SUBJECT: The U.S. Air Force Academy Lacked Effective Controls Over Heritage Assets and Guest
             	        House Inventories, and Inappropriately Solicited and Accepted Monetary Gifts
             	        (Report No. DODIG-2013-138)

             We are providing this report for your information and use. This U.S. Air Force Academy (USAFA)
             audit is the second in a series of military academy audit reports requested by the Senate Armed
             Services Committee staff. Although USAFA, its Nonappropriated Fund Instrumentalities, and
             its supporting nonprofit organizations had adequate controls over some aspects of its gift and
             nonappropriated fund processes, improvements could be made regarding accepting, recording,
             reporting, and conserving heritage assets; recording guest house inventories; awarding contracts
             using monetary gifts; soliciting and accepting monetary gifts; and reporting nonmonetary gifts
             of services.

             We considered management comments on a draft of this report when preparing the final
             report. Comments from the Under Secretary of Defense (Comptroller)/ Chief Financial Officer,
             DoD; National Museum of the U.S. Air Force; and the U.S. Air Force Academy conformed to the
             requirements of DoD Directive 7650.3; therefore, additional comments are not required.

             We appreciate the courtesies extended to the staff.        Please direct questions to me at
             (703) 601‑5945.




             						                                        Lorin T. Venable, CPA
             						                                        Assistant Inspector General
             						                                        Financial Management and Reporting




iv │ DODIG-2013-138
Distribution:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER, DOD
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
	      COMPTROLLER)
GENERAL COUNSEL, SECRETARY OF THE AIR FORCE
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, NATIONAL MUSEUM OF THE U.S. AIR FORCE
SUPERINTENDENT, U.S. AIR FORCE ACADEMY
DIRECTOR OF COMMUNICATIONS, U.S. AIR FORCE ACADEMY
CHIEF, U.S. AIR FORCE ACADEMY, DEVELOPMENT AND ALUMNI PROGRAMS
DIRECTOR, U.S. AIR FORCE ACADEMY, 10TH CONTRACTING SQUADRON




                                                                        DODIG-2013-138 │ v
                  Contents
                  Introduction______________________________________________________________________________1
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Gift and Nonappropriated Fund Definitions___________________________________________________2
                  Review of Internal Controls_____________________________________________________________________4

                  Finding A. Adequate Controls Existed Over Various Gift
                  and Nonappropriated Fund Processes________________________________6
                  USAFA Properly Accepted, Recorded, Reported, and Disbursed Monetary Gift Funds ____6
                  A NAFI Properly Accepted a Nonmonetary Gift and Complied With Recording and
                  Reporting Standards_____________________________________________________________________________7
                  NAFIs Properly Recorded, Reported, and Disbursed Nonappropriated Funds______________8
                  Nonprofit Organizations Generally Reported Their Monetary Gifts Accurately_____________9

                  Finding B. USAFA Heritage Program Lacked Adequate
                  Controls___________________________________________________________________________________ 10
                  Heritage Program and Its Inventory Databases_____________________________________________ 10
                  Improved Controls are Needed for Accepting, Recording, Reporting, and Conserving
                  Heritage Assets ________________________________________________________________________________ 11
                  Heritage Program Lacked Adequate Oversight, Resources, and Standard Operating
                  Procedures_ ____________________________________________________________________________________ 18
                  Management Actions Taken to Perform Resource Reviews, Provide Oversight, and
                  Further Search for the Humiston Artifacts___________________________________________________ 20
                  Summary_ ______________________________________________________________________________________ 20
                  Management Comments on the Finding and Our Response________________________________ 21
                  Recommendations, Management Comments, and Our Responses_________________________ 21

                  Finding C. Guest House Furnishings Lacked Internal
                  Controls___________________________________________________________________________________ 26
                  Guest House Furnishings Purchased With Monetary Gifts _________________________________ 26
                  Lack of Adequate Property Records for Guest House Furnishings_________________________ 26
                  Lack of Appropriate Property Accountability Personnel and Standard Operating
                  Procedures ____________________________________________________________________________________ 28


vi │ DODIG-2013-138
Management Actions Taken to Perform an Initial Inventory of Guest House
Furnishings_____________________________________________________________________________________ 30
Recommendations, Management Comments, and Our Responses_________________________ 30

Finding D. USAFA Inappropriately Awarded Contracts__ 33
USAFA Personnel Lacked Proper Authority to Sign Contracts _____________________________ 33
Air Force Policy Conflicts with Federal Guidelines__________________________________________ 34
Management Actions Underway to Properly Award and Administer Contracts__________ 36
Recommendations, Management Comments, and Our Responses ________________________ 36

Finding E. NAFIs Inappropriately Solicited, Accepted,
Recorded, and Reported Monetary Gifts_________________________ 38
Blue and Silver Club___________________________________________________________________________ 38
AFAAA Inappropriately Solicited and Accepted Monetary Gifts____________________________ 38
AFAAA Incorrectly Recorded and Reported Gifts ___________________________________________ 39
Recommendations, Management Comments, and Our Responses_________________________ 41

Finding F. Nonmonetary Gifts of Services for Academic
Chairs Were Not Reported___________________________________________________ 43
USAFA Properly Accepted, Recorded, and Reported Nonmonetary Gifts__________________ 43
USAFA Properly Transferred Nonmonetary Gifts of Services for Academic Chairs_______ 44
Nonmonetary Gifts of Services for Academic Chairs Not Reported to DFAS_ _____________ 44
Recommendations, Management Comments, and Our Responses_________________________ 46

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 48
    Use of Technical Assistance_______________________________________________________________ 52
    Prior Coverage on Gift Policy and Procedures___________________________________________ 52
Appendix B. NAFIs and Nonprofit Organizations Supporting USAFA_____________________ 54
    Nonappropriated Fund Instrumentalities_______________________________________________ 54
    Nonprofit Organizations__________________________________________________________________ 55
Appendix C. Heritage Assets Not Properly Recorded_______________________________________ 56
Appendix D. Heritage Assets Not Properly Conserved_____________________________________ 58
Appendix E. Blue and Silver Club Membership Levels______________________________________ 60




                                                                                                  DODIG-2013-138 │ vii
                   Management Comments_____________________________________________________ 61
                   Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD Comments_____ 61
                   National Museum of the U.S. Air Force Comments__________________________________________ 63
                   U.S. Air Force Academy Comments___________________________________________________________ 65

                   Acronyms and Abbreviations______________________________________________ 70




viii │ DODIG-2013-138
                                                                                                                           Introduction




Introduction
Objective
Our objective was to determine whether the United States Air Force Academy (USAFA),
its nonappropriated fund instrumentalities (NAFIs),1 and its supporting nonprofit
organizations were properly accepting, recording, reporting, and disbursing donations,2
gifts, and nonappropriated funds (NAFs).

We could not review USAFA and its NAFIs controls over disbursing nonmonetary gifts
because nonmonetary gifts are not disbursed. In addition, USAFA does not receive or
disburse NAFs, thus we were unable to determine whether USAFA properly accepts,
records, reports, or disburses NAFs. Furthermore, NAFI’s are primarily established
to earn revenues of NAFs by performing services. We did not review and report on
whether NAFI’s properly accepted earned revenues of NAFs. We were also unable to
determine whether NAFIs properly disbursed gift funds because NAFIs do not record
and track monetary gifts separately from NAFs. Additionally, since nonprofits are private
organizations, we did not test and report on whether they properly accepted, recorded,
and disbursed monetary and nonmonetary gifts. Lastly, NAFs do not apply to nonprofit
organizations because NAFs are earned and administered only through the auspices of a
NAFI. Therefore, we could not test controls over these funds at nonprofit organizations.

We reviewed USAFA’s controls for accepting, recording, reporting, and disbursing
monetary gifts.             We also reviewed USAFA’s controls for accepting, recording, and
reporting nonmonetary gifts. For NAFIs, we reviewed controls for accepting, recording,
and reporting monetary and nonmonetary gifts, and controls for recording, reporting,
and disbursing nonappropriated funds. Finally, we reviewed controls at the nonprofits
for reporting monetary and nonmonetary gifts. See Appendix A for a discussion of scope
and methodology and prior coverage related to the objectives.


Background
We performed this audit in response to a request from the Senate Armed Services
Committee staff. We met with Committee staff and discussed their request for potential
audits of gifts and NAFs at the U.S. Military Academy at West Point, U.S. Naval Academy,
and USAFA. The Committee staff agreed with a phased audit approach for reviewing the
military academies, starting with the U. S. Naval Academy. We issued the DoD Inspector

	1	
      A NAFI is a fiscal entity of the U.S. Government that is fully or partially supported by nonappropriated funds.
	2	
      Donations and gifts are the same and are used interchangeably throughout the report.




                                                                                                                        DODIG-2013-138 │ 1
Introduction



                 General Report No. DODIG‑2012-017, “U.S. Naval Academy Officials Did Not Adhere to
                 Contracting and Gift Policies,” on November 7, 2011. This USAFA audit is the second in a
                 series of military academy audit reports.

                 According to USAFA publications, USAFA has a dual role as a military installation and
                 a university. Much of USAFA is set up like an Air Force base, but the superintendent,
                 commandant, dean of faculty, and cadet wing are set up in a manner resembling a civilian
                 university. As an academic institution, USAFA must comply with the accreditation and
                 athletic regulations of the North Central Association of Colleges and Schools, and the
                 National Collegiate Athletic Association.

                 USAFA offers a 4-year program of instruction and experience designed to provide cadets
                 the knowledge and foster the character essential for leadership, and the motivation to
                 serve as Air Force career officers. Each cadet graduates with a bachelor of science degree
                 and is commissioned as a second lieutenant in the Air Force.

                 The USAFA Superintendent is the commanding officer and is responsible for USAFA’s
                 regimen of military training, academics, athletics and character development programs.
                 USAFA’s mission is to educate, train, and inspire men and women to become officers of
                 character motivated to lead the U.S. Air Force in service to our nation. Its vision is to be
                 the Air Force’s premier institution for developing leaders of character.


                 Gift and Nonappropriated Fund Definitions
                 The Federal Accounting Standards Advisory Board, Statement of Federal Financial
                 Accounting Standards No. 7, “Accounting for Revenue and Other Financing Sources and
                 Concepts for Reconciling Budgetary and Financial Accounting,” April 1996, defines gifts
                 as “contributions to the Government, that is, voluntary gifts of resources to a government
                 entity by a nonfederal entity. Gifts may be monetary gifts, such as cash or securities, or
                 nonmonetary such as land or buildings.”


                 Monetary Gifts
                 Monetary gifts accepted by USAFA are to be used for the benefit of USAFA, and subject
                 to the terms of the gift, devise, or bequest. Once monetary gifts are deposited into a
                 U.S. Treasury account, they become Government funds. Monetary gifts can be used for
                 many different reasons including purchasing guest house furnishings and contracting for
                 different types of academic services.




2 │ DODIG-2013-138
                                                                                                 Introduction



Nonmonetary Gifts
Nonmonetary gifts include property, plant, and equipment; heritage assets; and services.
Nonmonetary gifts can include items such as plaques, statues, benches, and academic
instruction. The Statement of Federal Financial Accounting Standards (SFFAS) No. 29,
“Heritage Assets and Stewardship Land,” July 7, 2005, defines heritage assets as property,
plant, and equipment that are unique for one or more of the following reasons: cultural,
educational, historical, or natural significance. Heritage assets are collections of objects
gathered and maintained for exhibition. Sections 431-433 and 470, title 16, United States
Code, (16 U.S.C. § 431-433, 470), as amended, apply to heritage assets and these sections
state that heritage assets constitute a part of the National Historical Collection and their
preservation for public use is required.

DoD Regulation 7000.14‑R, “Financial Management Regulation” (DoD FMR), volume 12,
chapter 30, “Operation and Use of General Gift Funds,” defines services as activities
that benefit the morale, welfare, or recreation of members of the armed forces and
their dependents or are related or incidental to the conveyance of a gift of real or
personal property.


Nonappropriated Funds
NAFs are Government monies and assets from sources other than monies appropriated
by Congress. NAFs are separate and apart from funds recorded by the U.S. Treasury.
NAFs shall be administered only through the auspices of a NAFI. Only NAFIs can use
NAFs for the benefit of authorized patrons and the purpose of the NAFI.


Nonappropriated Fund Instrumentalities
A NAFI is a fiscal entity of the U.S. Government that is partially or fully supported by NAFs.
NAFIs act in their own name to assist other DoD organizations in providing Air  Force
Services programs for military personnel and authorized civilians. USAFA has the
following five NAFIS:

         •	 Air Force Academy Athletic Association Fund;

         •	 Air Force Lodging Fund;

         •	 Cadet Dining Hall Fund;

         •	 Morale, Welfare, and Recreation Fund; and

         •	 Superintendent’s Mission Support Fund.

See Appendix B for a description of these NAFIs.


                                                                                             DODIG-2013-138 │ 3
Introduction



                 Nonprofit Organizations
                 USAFA depends on private funding to support military, academic, athletic, and character
                 development programs. Six private nonprofit organizations support USAFA. These
                 nonprofit organizations are the:

                         •	 Academy Research and Development Institute;

                         •	 Air Force Academy Foundation;

                         •	 Association of Graduates;

                         •	 Falcon Foundation;

                         •	 Friends of the Air Force Academy Library; and

                         •	 USAFA Endowment.

                 These nonprofit organizations support the USAFA mission through the funding of
                 programs, facilities, scholarships, endowments for academic department chairs, etc.
                 See Appendix B for a description of the two largest nonprofit organizations that we
                 reviewed; the USAFA Association of Graduates and the USAFA Endowment.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
                 July  29, 2010, requires DoD organizations to implement a comprehensive system of
                 internal controls that provide reasonable assurance that programs are operating as
                 intended and to evaluate the effectiveness of the controls. We determined that internal
                 control weaknesses existed at USAFA regarding its heritage asset program, guest house
                 inventory records, contracting with gift funds, soliciting and accepting monetary gifts,
                 and reporting nonmonetary gifts of services.

                 The USAFA Superintendent, the National Museum of the U.S. Air Force (NMUSAF) Director,
                 and the USAFA Director of Communications did not provide adequate oversight over the
                 USAFA Heritage Program. In addition, the USAFA Superintendent and NMUSAF Director
                 did not properly staff the heritage program. Furthermore, the director of communications
                 did not establish standard operating procedures for accepting, recording, reporting, and
                 conserving heritage assets at USAFA. (Finding B)

                 The USAFA Superintendent did not appoint the appropriate property accountability
                 personnel to manage, record, and inventory guest house furnishings including pilferable
                 items. In addition, the USAFA Superintendent did not establish standard operating



4 │ DODIG-2013-138
                                                                                                                                   Introduction



procedures to implement DoD and Air Force guidance for recording and inventorying
guest house furnishings including pilferable items. (Finding C)

USAFA Development and Alumni Programs (CMA) officials were unaware that the Federal
Acquisition Regulation (FAR) and Government Accountability Office (GAO) criteria
applied to gift fund contracts. In addition, USAFA criteria on the use of gift funds conflicts
with GAO criteria. (Finding D)

Air Force Academy Athletic Association (AFAAA) personnel were not familiar with DoD
and Air Force requirements prohibiting the solicitation of gifts. In addition, AFAAA
accounting staff lacked training and experience necessary to accurately record and report
the donations. (Finding E)

The Air Force General Counsel believed USAFA was responsible for reporting
nonmonetary gifts of services since USAFA benefited from these gifts. In addition,
the DoD FMR did not clearly require entities to report nonmonetary gifts of services,
specifically, those received through “volunteer gratuitous service agreements”3 to
Defense Finance and Accounting Service (DFAS). (Finding F)

We will provide a copy of the report to the senior officials responsible for internal controls.




	3	
      Volunteer gratuitous service agreements are those entered into and signed by a volunteer who agrees to provide
      gratuitous volunteer services to USAFA’s Dean of Faculty, provide services without expectation of compensation from the
      U.S. Government, and agrees that no claim for services rendered will be made against the U.S. Government.




                                                                                                                                DODIG-2013-138 │ 5
Finding A




                     Finding A
                     Adequate Controls Existed Over Various Gift and
                     Nonappropriated Fund Processes
                     USAFA, its NAFIs, and its supporting nonprofit organizations had adequate controls over
                     some aspects of its gift and nonappropriated fund processes. For example:

                                   •	 USAFA had adequate controls for accepting, recording, reporting, and
                                       disbursing4 monetary gift funds;

                                   •	 NAFI properly accepted a nonmonetary gift and complied with recording and
                                       reporting standards;

                                   •	 NAFIs properly recorded, reported, and disbursed nonappropriated funds;
                                       and

                                   •	 Nonprofit organizations selected for review generally reported their monetary
                                       gifts accurately.



                     USAFA Properly Accepted, Recorded, Reported, and
                     Disbursed Monetary Gift Funds
                     We reviewed a nonstatistical sample of 25 monetary gifts received in FY 2011
                     and determined that USAFA personnel accepted the monetary gifts in accordance
                     with Air Force Instruction (AFI) 51-601, “Gifts to the Department of the Air  Force,”
                     November  26, 2003, and the USAFA supplement dated February 21, 2008.
                     For example, USAFA properly completed acceptance letters and recorded all
                     25 monetary gifts in separate gift fund accounts in accordance with USAFA
                     Instruction (USAFAI) 51‑601, “USAF Academy Management and Use of Gift Funds,”
                     July 11, 2006, and January 5, 2011. In addition, USAFA personnel properly reported
                     the monetary gifts. For example, we traced all 25 monetary gifts to DD  Form  1131,
                     “Cash Collection Voucher,” which is used to report monetary gifts to the Department
                     of Treasury and to notify the Defense Finance and Accounting Service (DFAS) of the
                     monetary gift.4


                     	4	
                           USAFA lacks adequate controls over recording guest house furnishings purchased with gift funds and over awarding
                           contracts with gift funds. See Findings C and D for our review and analysis of controls in place over guest house furnishings
                           purchased with gift funds and over awarding contracts with gift funds.




6 │ DODIG-2013-138
                                                                                                                              Finding A



USAFA CMA generally had adequate controls in place
                                                                                                 We
for disbursing monetary gift funds.                       Our testing of
                                                                                             reviewed
disbursements showed that USAFA personnel properly                                         $5,000,000 of
used gift funds.            USAFAI 51‑601 requires USAFA                             $6,505,600 in monetary
personnel to use monetary gifts for appropriate                                       gifts disbursed during
                                                                                         FY 2011…and the
uses. We reviewed whether USAFA properly used                                          disbursements met
$5,000,000           of    $6,505,600         in     monetary         gifts                 the donors’
disbursed during FY 2011. We determined that these                                             intent.
disbursements met the donors’ intent and were therefore
used in accordance with USAFAI 51-601.                           However, we also tested disbursements
related to gift fund contracts and found that the contracts were not signed by an
authorized contracting officer as discussed in Finding D.


A NAFI Properly Accepted a Nonmonetary Gift and
Complied With Recording and Reporting Standards
During our testing of NAFI controls over accepting, recording, and reporting nonmonetary
gifts, we found that the Morale, Welfare, and Recreation (MWR) fund,5 a NAFI, properly
accepted a gift and followed procedures to ensure that the gift was not recorded and
reported as required by the AFI 34-201 USAFA Supplement, “Use of Nonappropriated
Funds (NAFS),” May 7, 2010, and Statement of Financial Accounting Standards
(SFAS) No.  116, “Accounting for Contributions Received and Contributions Made,”
June 1993. The gift was from the local minor league baseball team and consisted of
20,000 vouchers for baseball tickets, valued at $181,000. The MWR properly accepted
these nonmonetary gifts in accordance with AFI 34-201 USAFA Supplement.

NAF accounting office personnel were not required to record or report the receipt
or transfer of this gift since the MWR was an intermediary in
the transfer.          SFAS 116 explains that when donors use an
intermediary to transfer contributions to recipients, the                                         The NAF
contribution is not considered a contribution to the                                             accounting
                                                                                             office…effectively
intermediary. Since the NAF accounting office was only                                      applied accounting
an intermediary, it effectively applied accounting standards                                 standards for the
for the MWR Fund by not recording and reporting the receipt                                     MWR Fund.
and transfer of this gift.



	5	
      The MWR Fund supports morale, welfare, and recreation activities and programs at USAFA. See Appendix B for more
      information on the MWR Fund.




                                                                                                                        DODIG-2013-138 │ 7
Finding A



                 NAFIs Properly Recorded, Reported, and Disbursed
                 Nonappropriated Funds
                 AFAAA, a NAFI, properly recorded and reported $397,980 in revenue for commercial
                 sponsorships. AFAAA, the primary recipient of NAFI commercial sponsorship money,
                 entered into a commercial sponsorship agreement to handle its sponsorship needs.6
                 We tested $397,980 of $466,380 reported on the AFAAA’s operating statement during
                 FY 2011. Based on our testing, we determined that AFAAA personnel properly recorded
                 the revenue amounts and properly reported these funds on the operating statement.

                 NAFIs properly disbursed nonappropriated funds.                                 During FY 2011, there were
                 401 NAFI contracting actions with a total value of approximately $7.1 million. We
                 reviewed 36 NAFI contracting actions consisting of:

                             •	 Twenty three contracts valued at $2 million;

                             •	 Nine blanket purchase agreements valued at $827,000; and

                             •	 Four delivery orders valued at $987,673.

                 Based on our nonstatistical sample of 36 contracting
                                                                                                                  USAFA
                 actions valued at $3.8 million, USAFA officials properly                                         officials
                 disbursed approximately $3.8 million of NAFs through                                       properly disbursed
                 NAFI contracting actions.                USAFA contracting officers                          approximately
                                                                                                            $3.8 million of NAFs
                 complied with Air Force Manual (AFMAN) 64‑302,                                                through NAFI
                 “Nonappropriated Fund (NAF) Contracting Procedures,”                                           contracting
                 November 3, 2000, to disburse the NAFs during FY 2011.                                           actions.

                 All NAF contract disbursements were processed centrally by the Air Force Services
                 Agency. The 10th Force Support Squadron and the 10th Contracting Squadron prepared,
                 maintained, and managed the 36 NAFI contracting actions.7 All USAFA contracting
                 personnel had contracting warrants, as required by AFMAN 64-302.

                 For the contract actions we reviewed, contracting officers competed contracts when
                 appropriate and properly prepared sufficient sole‑source justifications when purchasing
                 from a single source. AFMAN 64-302 provides specific requirements for the number


                 	6	
                     AFI 34-407 USAFA Supplement, “Air Force Commercial Sponsorship Program,” October 28, 2010, defines commercial
                     sponsorship as the outside partial underwriting of an MWR event (as an element of the Air Force Services) by a consumer
                     product/service company using money, goods and/or services to obtain limited recognition and advertising benefits.
                 	7	
                     The 10th Force Support Squadron has limited contracting authority and cannot exceed $25,000 for non-resale purchases.
                     The 10th Contracting Squadron is USAFA’s base appropriated fund contracting office that handles contracts over $25,000.




8 │ DODIG-2013-138
                                                                                                                                   Finding A



of solicitations required when competing contracts over $5,000, up to and including
$100,000, and exceeding $100,000. Further AFMAN 64-302 provides exceptions to
competition for certain types of contracting actions. For example, contracting for resale
items, delivery orders, or entertainment contracts do not need competition.

USAFA was required to compete 11 of 36 contracting actions based on the contract amount
and type of service. Contracting officers documented their rationale for awarding 11 of
36 contracting actions requiring competition. USAFA obtained competitive bids from at
least two sources for 9 of 11 contracting actions requiring competition. The contracting
officers’ analysis included a review of price for these nine contracts. For the two
contracting actions that did not receive at least two bids, USAFA properly prepared
sole-source justifications.                 The USAFA contracting officers provided sufficient
justification to purchase from a single source for the two sole-source contracts. The
remaining 25  contracting actions did not require competitive bids because they were
either purchases below $5,000, resale items, delivery orders, or commercial entertainment
contracts.


Nonprofit Organizations Generally Reported Their
Monetary Gifts Accurately
There were no material differences between the amount of monetary gifts USAFA
recorded and reported it received from nonprofits and the amount of monetary
gifts the nonprofits reported they gave to USAFA. USAFA’s six supporting nonprofit
organizations reported $5.9 million in monetary gifts to USAFA between July 2009 and
December 2010.8                 We compared the monetary gifts reported by the supporting
nonprofit organizations to the amount of gift funds USAFA reported it received from
the supporting nonprofit organizations during the same time period. The reconciliation
showed there were only immaterial differences of about $2,500, between the
two amounts.




	8	
      We reviewed the nonprofits’ Internal Revenue Service Form 990 to determine the amount reported as monetary gifts to
      USAFA. The six nonprofits had different tax years that ranged between July 1, 2009 and December 31, 2010. Two of the
      nonprofits did not contribute funds to USAFA during that time frame.




                                                                                                                             DODIG-2013-138 │ 9
Finding B




                  Finding B
                  USAFA Heritage Program Lacked Adequate Controls
                  USAFA officials did not have effective controls for accepting, recording, reporting, and
                  conserving9 heritage assets. Specifically, the former museum specialist10 did not:

                                •	 have formal authority to accept heritage assets;

                                •	 record all heritage assets in the Air Force Museum Artifacts Tracking System
                                    (AFMATS);

                                •	 perform required biennial inventories of heritage assets and prepare
                                    inventory reports; and

                                •	 conserve heritage assets.

                  These conditions occurred because the USAFA Superintendent, the NMUSAF Director,
                  and the USAFA Director of Communications did not provide adequate oversight of the
                  USAFA Heritage Program, such as delegating gift acceptance authority and ensuring
                  complete inventories of heritage assets at USAFA were performed. In addition, the USAFA
                  Superintendent and NMUSAF Director did not properly staff the heritage program and
                  the director of communications did not establish standard operating procedures for
                  accepting, recording, reporting, and conserving heritage assets at USAFA. As a result,
                  heritage assets are subject to misplacement, deterioration, destruction, and theft.



                 Heritage Program and Its Inventory Databases
                 In its 58 years of existence, USAFA has accumulated a collection of approximately
                 5,000  historical objects for its heritage program. This collection includes a total of
                 2,429  artifacts on loan to USAFA from the NMUSAF. AFI 84‑103, “Air Force Heritage
                 Program,” October 27, 2004 states that Sections 431-433 and 470, title 16, United States
                 Code (2012), state that all of these items constitute a part of the National Historical
                 Collection and their preservation for public use is required.                             9 10




                 USAFA Heritage Program assets are classified as Historical Holdings for NMUSAF
                 according to AFI 84‑103. AFI 84-103 also provides guidance for accepting, recording,


                 	9	
                        The condition of a heritage asset must be recorded in AFMATS. While we could not determine whether the reported
                        condition of the asset was accurate due to a lack of technical expertise, during our observation of the heritage assets, we
                        identified that the assets were not properly conserved.
                 	10	
                        The museum specialist retired in February 2012. USAFA hired a new museum specialist in March 2012.




10 │ DODIG-2013-138
                                                                                                 Finding B



reporting, and conserving heritage assets. Heritage assets are nonmonetary gifts of
property, plant, and equipment that have cultural, educational, historical, or natural
significance.

The museum specialist manages the heritage program at USAFA. The museum specialist
organizationally reports to the Development and Alumni Programs (CMA) Chief and
the chief reports to the director of communications. The museum specialist uses three
databases to record heritage assets: the USAFA Local Collection database, AFMATS, and
the Pentagon Art Program Collection database.

            USAFA Local Collection Database. An in-house database that records all
            the historical items located at USAFA. It is maintained and operated by the
            museum specialist for detailed data on heritage assets. This database is not
            required by the Air Force.

            AFMATS Database. The central accounting and management program for
            Air Force historical property. AFI 84-103 requires all heritage activities with
            more than 100 items of historical property to use AFMATS.

            Pentagon Art Collection Database. Tracks a special collection of heritage
            assets that are borrowed from the Pentagon Art Program. The Air Force Art
            Program requires the use of this database.


Improved Controls are Needed for Accepting,
Recording, Reporting, and Conserving Heritage Assets
USAFA officials did not have effective controls for accepting, recording, reporting,
and conserving gifts of heritage assets. We selected a sample of 25 heritage assets to
determine whether adequate controls were in place for accepting, recording, reporting,
and conserving heritage assets. The results of our testing are summarized below.


Former Museum Specialist Was Not Authorized to Accept
Heritage Assets
The former museum specialist accepted heritage assets                 The USAFA
without formal authority. The USAFA Superintendent                 Superintendent
and NMUSAF Director never delegated authority                   and NMUSAF Director
                                                                   never delegated
to the former museum specialist to accept or reject
                                                               authority to the former
heritage assets. AFI 51‑601, “Gifts to the Department            museum specialist
of the Air Force,” February 21, 2008, authorizes the              to accept or reject
                                                                   heritage assets.


                                                                                          DODIG-2013-138 │ 11
Finding B



                 USAFA Superintendent to accept gifts of personal property valued at $100,000 or less,
                 and real property valued at $10,000 or less. AFI 51-601 also states that officials may
                 delegate their authority to subordinate commanders and principal subordinates. In
                 addition, an opinion rendered by the Headquarters, U.S. Air Force Judge Advocate
                 General in January 2009, stated the NMUSAF Director can also designate a subordinate
                 to sign or act in the commander’s name within limits established by the commander.
                 To ensure heritage assets are properly accepted, the USAFA Superintendent should
                 delegate acceptance authority for heritage assets to the USAFA Museum Specialist
                 or other individuals as appropriate.

                 Additionally, USAFA officials did not maintain copies of Air Force Form 3571, “USAF
                 Museum System Proffer of Gift Agreement,”11 for any of the 25 sampled heritage assets.
                 AF Form 3571 legally transfers items, including heritage assets, from the donor to the
                 U.S.  Air Force and the USAFA Heritage Program and is required upon acceptance of
                 donated historical property.                      AFI 84-103 requires that signed originals of the
                 AF Form  3571 be kept in the item’s accession folder.                                        The USAFA Director of
                 Communications should implement controls to ensure that AF Form 3571 is
                 completed and maintained for all heritage assets received.


                 Former Museum Specialist Did Not Properly Record Heritage
                 Assets
                 The former museum specialist did not properly record all heritage assets in AFMATS.
                 Our testing of the 25 heritage assets showed that the former museum specialist did
                 not maintain accountability records. The former museum specialist did not complete
                 AF Form  3582, “USAF Museum System Accession Worksheet,”12 properly maintain
                 photographs in the accession folder, describe the condition of the heritage asset, and
                 assign a permanent accession number.13 AFI 84‑103 states that all heritage activities must
                 ensure accountability of heritage assets and that all heritage activities with more than
                 100 items of historical property must use AFMATS for recording purposes. AFI 84‑103
                 further states that heritage activities must establish accountability of assets within
                 24 hours of receipt by entering the items into the heritage activity’s accession register.
                 An accession register is a system, either in manual/paper form or electronic form, or
                 both used to track heritage assets. AFI 84-103 requires certain documentation to be
                 maintained including: AF Form 3571, AF Form 3582, a photo of the heritage asset,
                 condition of the heritage asset, and assignment of a permanent accession number.

                 	11	
                        Air Force Form 3571 should include donor name or source, nomenclature, date, and who accepted the heritage assets.
                 	12	
                        Air Force Form 3582 must be completed within 30 days and constitutes the primary record of all heritage assets. Air Force
                        Form 3582 provides details such as date received, accession number, class/type, and location.
                 	13	
                        The accession number is a sequential number given to the heritage asset that identifies the location, year the heritage
                        asset was received, the item number, and the subunit or unit number for categorizing the heritage asset.


12 │ DODIG-2013-138
                                                                                                                                          Finding B



Specifically, the former museum specialist did not maintain AF Forms 3571 and 3582 for
any of the heritage assets we sampled. Although the former museum specialist provided
photographs for the 25 heritage assets reviewed, he did not save the photographs in
the accession folder as required by AFI 84-103. Instead, the former museum specialist
saved the photographs in a separate file on his computer without any unique identifier
that would permit linking the photographs to the Local Collection database or AFMATS.
Further, he did not ensure that the accession number was clearly marked on the
photographs, as required by AFI 84-103.14 Additionally, the former museum specialist
did not enter the overall condition for 8 of 25 heritage assets in AFMATS. Finally,
USAFA personnel never assigned a permanent accession number to 9 of 25 heritage
assets. See Appendix C for a table summarizing the 25 heritage assets that were not
properly recorded by the specialist. The USAFA Director of Communications should
implement controls to ensure that AF Form 3582 is completed and maintained for all
heritage assets received.

During an interview, the former museum specialist stated
that there were heritage assets scattered across the                                                  The
USAFA campus that were not recorded in either the                                              former museum
Local Collection database or AFMATS.                             The former                  specialist stated that
                                                                                             there were heritage
museum specialist’s statement was supported by our                                          assets scattered across
observations. Figure 1 below shows many heritage                                              the USAFA campus
assets in the Harmon Hall basement storage room that                                             that were not
                                                                                                   recorded.
were not recorded by the former museum specialist, in
AFMATS, including artwork and military officers’ uniforms.

Figure 1. Heritage Assets Not Recorded




	14	
       Photographs of the heritage assets on display or in a collection should have the accession number clearly marked for easy
       identification.


                                                                                                                                   DODIG-2013-138 │ 13
Finding B



                 Furthermore, a September 2011 memorandum report15 prepared by the NMUSAF staff
                 stated that USAFA had not properly recorded all of its heritage assets. The report stated
                 that 279 heritage assets were not accessioned properly into AFMATS and 400 assets had
                 been assigned accession numbers in prior years, but had not been entered into AFMATS
                 and reported to NMUSAF. The USAFA Director of Communications should implement
                 controls to ensure that all heritage assets are recorded in AFMATS in accordance with
                 AFI  84-103. Specifically, the USAFA Director of Communications should implement
                 controls to ensure that the accession folder includes photographs, photographs include
                 an accession number, the accurate heritage asset condition is in AFMATS, and all heritage
                 assets are assigned a permanent accession number.

                 Location of Heritage Assets. The three databases used by USAFA to record and track
                 heritage assets did not provide the specific location of the 25 heritage assets in our
                 sample. Therefore, we could not independently track heritage assets to their specific
                 physical locations during our review. For example, AFMATS only
                 listed the USAFA library as the location for a French infantry                                              We
                 musket dating back to the late 1700’s. We were unable to                                                 could not
                                                                                                                       independently
                 find the musket in the library without the assistance of the                                      track heritage assets
                 former museum specialist because AFMATS did not list the                                             to their specific
                 floor, hallway, or specific room within the library where the                                       physical locations
                                                                                                                         during our
                 musket was located. Because specific physical locations
                                                                                                                           review.
                 were not provided in any of the USAFA databases, we were
                 unable to independently find the 25 heritage assets during our
                 physical inventory. Instead, we had to use the assistance of the former museum specialist
                 during the inventory to find the heritage assets. The former museum specialist was the
                 only official responsible for heritage assets at USAFA and as a result the only one with the
                 knowledge to know exactly where the assets were located. AFMATS does not necessarily
                 require a specific location. However, given the unique circumstances at USAFA, such
                 as not having a museum, and only having one person responsible for all aspects of the
                 program, it is very important that a detailed location be documented to ensure USAFA is
                 able to maintain proper oversight of the heritage assets. Another example of a problem
                 identified with the location of heritage assets, was during the inventory, the former
                 museum specialist pointed out an original Norman Rockwell painting that was not part
                 of our sample. A similar original Norman Rockwell painting is valued over $6 million.
                 Given the uniqueness and value of the original painting, we traced the painting to AFMATS,
                 and determined that a detailed location of this asset was not listed in AFMATS.


                 	15	
                        This report was the result of a site assistance visit from NMUSAF to review USAFA’s overall compliance with Air Force
                        guidance and standards established in AFI 84-103.




14 │ DODIG-2013-138
                                                                                              Finding B



We also found that 1 of 25 heritage assets in our sample was noted as transferred to
NMUSAF in AFMATS. This heritage asset collectively represented 118 items known as
the Humiston Prisoner of War Collection. The former museum specialist showed us
paperwork transferring the entire Humiston Prisoner of War Collection to NMUSAF.
However, NMUSAF had record of receiving only 93 of 118 items from the collection. The
NMUSAF September 2011 memorandum report stated that the former museum specialist
was never able to locate the 25 missing items. According to the report, the former
museum specialist stated that the items were recorded in AFMATS and sent to NMUSAF
in 2005 by his predecessor. However, the predecessor museum specialist was not present
when the donor packed the Humiston Prisoner of War Collection. To ensure that all items
of the Humiston Prisoner of War Collection are accounted for, the NMUSAF Director
should conduct a formal search for the missing items from the Humiston Prisoner of War
Collection and take the actions required by AFI 84-103.


Former Museum Specialist Did Not Perform Inventories and
Did Not Properly Report Heritage Assets
The former museum specialist did not perform required biennial inventories of heritage
                     assets and prepare inventory reports.     AFI 84‑103 states that

              The          proper stewardship of heritage assets requires regular and
            former            comprehensive inventories, including a comprehensive
     museum specialist         wall-to-wall inventory on all heritage assets biennially,
       did not perform
                                and reporting the inventory to NMUSAF biennially. The
      required biennial
   inventories of heritage      NMUSAF Director granted an extension in 2007 and a
     assets and prepare        temporary exemption in 2009 to the former museum
          inventory          specialist for the wall‑to‑wall inventories. However, the
           reports.
                         former museum specialist never completed either inventory.

In February 2007, the former museum specialist requested an extension from NMUSAF
for completing the inventory due May 1, 2007. The former museum specialist requested
this extension due to the relocation of specific collections from temporary storage; the
dispersed nature of items displayed across the USAFA campus; the large number of items
and locations not recorded in AFMATS; cataloging and data entry errors; and the lack
of photographs for artifacts. In April 2009, the former museum specialist requested a
temporary exemption for the biennial inventory requirement until the collection could
be inventoried, reconciled, and properly cataloged into AFMATS. The request stated that
the temporary exemption was necessary due to the extreme amount of discrepancies
discovered during the 2007 inventory and current efforts to bring the collection into
compliance with AFI 84-103. The request also described the demands placed on the




                                                                                       DODIG-2013-138 │ 15
Finding B



                 former museum specialist, the unique nature of USAFA, and its system of priorities that
                 made a concerted effort to complete the inventory in a systematic manner impossible.

                 The NMUSAF September 2011 memorandum report stated that USAFA staff had concerns
                 that an inventory of heritage assets could not be completed because identified problems
                 had not been resolved. The NMUSAF memorandum report also stated that the former
                 museum specialist stated that he might retire in 2011. Based on this information, the
                 NMUSAF conducted a staff assistance visit to USAFA to assist them in preparing for the
                 required biennial inventory. The NMUSAF team found that heritage assets were not
                 accessioned properly into AFMATS. Furthermore, the NMUSAF team found that heritage
                 assets previously assigned accession numbers had not been entered into AFMATS and
                 reported to NMUSAF. The results of our review support NMUSAF’s findings.

                 In June 2013, USAFA officials reported that a comprehensive wall‑to‑wall inventory
                 of heritage assets was accomplished in April 2013 and future biennial inventories
                 will be conducted in accordance with AFI 84‑103. Therefore, we are not making a
                 recommendation to the USAFA Director of Communications to conduct a wall-to-wall
                 inventory and ensure biennial inventories are performed. NMUSAF
                 officials, in June 2013, reported that they are no longer granting
                 extensions for the required comprehensive wall-to-wall                        In June
                 inventories of USAFA heritage assets. Therefore, we are                   2013, USAFA
                                                                                         officials reported
                 not making any recommendation to the NMUSAF Director                 that a comprehensive
                 to cease granting extensions or temporary exemptions.                wall‑to‑wall inventory
                 The NMUSAF Director should perform oversight of USAFA’s              of heritage assets was
                                                                                          accomplished.
                 inventory of heritage assets until USAFA’s entire inventory of
                 heritage assets are properly accepted, recorded, and reported.


                 Heritage Assets Not Conserved
                 The former museum specialist did not enter the overall condition for 8 of 25 heritage
                 assets in AFMATS. AFI 84‑103 requires the condition of the heritage asset to be
                 recorded. We could not determine whether the recorded conditions for the remaining
                                            17 heritage assets were accurate because we are not conservation
                              The
                                               experts. In addition, the museum specialist did not ensure
                           museum
                         specialist did         that the heritage assets were adequately protected against
                      not ensure that the        agents of deterioration, destruction, and theft.    Agents
                        heritage assets          of deterioration include mold and mildew, insects or
                       were adequately
                                                vermin, mechanical stress, dust, pollution, vandalism,
                          protected.
                                               excessive heat and humidity, and visible ultraviolet light




16 │ DODIG-2013-138
                                                                                                Finding B



extremes. AF Policy Directive 84-1, “Historical Information Property and Art,”
September  16,  2005, states that the mission of all U.S. Air Force Heritage Program
activities is to work collectively to express the Air Force’s heritage and to preserve
its material culture. AFI 84-103 also outlines specific procedures for protecting and
conserving heritage assets. For example, AFI 84-103 suggests that all heritage assets
should be in cases. In addition, AFI 84‑103 references an American Association of
State and Local History book for the proper conservation of heritage assets. “The Care
of Antiques and Historical Collections,” by A. Bruce MacLeish, states:

           Proper storage for artifacts is vital to their preservation—it should
           provide the opportunities to guard the collection against various agents
           of destruction more easily than may be possible when the objects are
           on view. In a closed, confined space, it should be simpler to control
           changes in relative humidity, air pollution, vibration, light, insects and
           other pests, deleterious materials, and handling by humans. Not only is
           good storage a legal responsibility of museums—it is the cheapest, most
           effective technique for preserving the monetary and historical value of
           collections objects.


We observed that 17 of 25 heritage assets were at risk for deterioration, destruction, and
theft. Figure 2 shows several paintings, one of which was in our sample, that were stored
in Harmon Hall’s basement storage room.

Figure 2. Paintings Not Properly Conserved




There were many other heritage assets such as airplane models, maps, officer’s uniforms,
and trophies in the Harmon Hall basement storage room that USAFA did not adequately
protect and conserve. In addition, we observed another sample item, a Japanese lantern,
located on the patio of the USAFA Superintendent’s residence without protection from




                                                                                         DODIG-2013-138 │ 17
Finding B



                 inclement weather. Figure 3 shows the Japanese lantern, over 100 years old, that was
                 subjected to rainwater or frost that could accumulate in the small cracks or pitted areas of
                 the stone. The force from the expansion of freezing water makes the surface susceptible
                 to chipping and cracking. The former museum specialist did not know this asset was
                 located on the patio of the USAFA Superintendent’s residence until our audit.

                 Figure 3. Japanese Lantern Not Properly Conserved




                 See Appendix D for a table summarizing the 17 heritage assets that were not properly
                 conserved.


                 Heritage Program Lacked Adequate Oversight,
                 Resources, and Standard Operating Procedures
                 The USAFA Superintendent, NMUSAF Director, and the USAFA Director of Communications
                 did not provide adequate oversight of the heritage program. For example, the USAFA
                 Superintendent did not delegate gift acceptance authority and did not ensure heritage
                 assets were being properly accepted, recorded, reported, and conserved. The NMUSAF
                 Director and the USAFA Director of Communications did not require the former museum
                 specialist to complete comprehensive wall-to-wall inventories of USAFA heritage assets,
                 and as a result, an inventory of heritage assets was not completed.

                 Additionally, the USAFA Superintendent and NMUSAF Director
                                                                                             The
                 did not properly staff the heritage program to ensure that                 USAFA
                 heritage assets were properly accepted, recorded, reported,           Superintendent
                 and conserved. USAFA officials stated that in March 2011,              and NMUSAF
                                                                                       Director did not
                 the USAFA Director of Communications, in coordination
                                                                                        properly staff
                 with the USAFA Manpower and Personnel, documented                       the heritage
                 the need for an additional person for the heritage program,               program.



18 │ DODIG-2013-138
                                                                                                                                  Finding B



but the position was never funded. USAFA is the only U.S. military academy without a
museum, and the heritage program was managed by one person, the former museum
specialist. The former museum specialist was responsible for managing approximately
5,000 heritage assets. In addition, the NMUSAF September 2011 memorandum report
stated that the former museum specialist was also responsible for 153 pieces of art work
on loan from the Air Force Art Program office, a collection of more than 3,000 paintings
and art objects, 250 decorative furnishings in leadership residential quarters, hundreds
of mementos presented by dignitaries, and the office equipment account. In addition
to his duties as the museum specialist, he was responsible for maintaining an inventory
of the furnishings located at USAFA guest houses. The report also stated that he was
the client support administrator for the office computer systems and was responsible for
coordinating memorial events and dedication ceremonies. The report stated that all of
these other duties did not give the former museum specialist time to focus on the proper
accountability and care for heritage assets or the time needed to develop, research, or
present new exhibits.

According to the former museum specialist and the NMUSAF September 2011
memorandum report, USAFA did not include funding in the USAFA annual budgets to
manage the program. Prior to 2006, the heritage program was funded through gifts on an
individual project or request basis. The report also stated that since 2006, appropriated
funds, initially allocated to other functions, had been used for the historical property
collection.16 The report stated that these limited funds had been used to reframe artwork
and for curatorial supplies and equipment but were inadequate given the size and scope
of the USAFA heritage assets. In June 2013, USAFA officials reported that the USAFA
Director of Communications, in coordination with the USAFA Manpower and Personnel,
documented the need for an additional person for the heritage program, but the position
is currently unfunded. Therefore, we are not making a recommendation to the USAFA
Director of Communications to perform a resource requirement review for the heritage
program. However, we recommend that the USAFA Director of Communications take
appropriate action as determined by the review.

Furthermore, the USAFA Director of Communications did not establish standard
operating procedures (SOPs) for accepting, recording, reporting, and conserving USAFA
heritage assets. If USAFA had SOPs that defined responsibilities for heritage assets
and provided detailed guidance on how to properly accept, record, report, and
conserve heritage assets, it may have managed the heritage program more effectively.


	16	
       The museum specialist estimated that USAFA allocated $10,000 or less per fiscal year to the heritage program from
       unexpended Development and Alumni Programs Division appropriated funds.




                                                                                                                           DODIG-2013-138 │ 19
Finding B



                 The USAFA Director of Communications should perform a review and analysis of
                 the heritage program to determine the most efficient and effective processes and
                 procedures for accepting, recording, reporting, and conserving heritage assets. Based
                 on this review and analysis, the USAFA Director of Communications should develop
                 and implement processes and standard operating procedures for accepting, recording,
                 reporting, and conserving USAFA heritage assets.


                 Management Actions Taken to Perform Resource
                 Reviews, Provide Oversight, and Further Search for the
                 Humiston Artifacts
                 USAFA officials stated that the Manpower and Personnel Office has recently initiated
                 another review of the current manpower for the CMA office. NMUSAF officials stated that
                 as of June 2013, they were working on reconciling the findings from previous inventories
                 and providing guidance and oversight to the historical property custodian. However,
                 due to budget restraints within the Air Force and the completion of the inventory, they
                 determined a site assistance visit was not necessary at this time. Finally, in January 2013,
                 NMUSAF re-verified that the Humiston artifacts were not returned to NMUSAF. Therefore,
                 NMUSAF officials have begun taking steps to complete a Report of Survey17 for the missing
                 items, as required by AFI 84‑103.


                 Summary
                 USAFA officials did not have effective controls for accepting, recording, reporting, and
                 conserving heritage assets. Specifically, the former museum specialist did not have
                 formal authority to accept heritage assets, did not record all heritage assets in AFMATS,
                 did not complete required inventories, and did not conserve heritage assets. As a result,
                 USAFA heritage assets are subject to misplacement, deterioration, destruction, and
                 theft. We identified other similar weaknesses in oversight of guest house furnishings
                 (Finding C) and gift fund contracts (Finding D).                                   We recommend that the USAFA
                 Director of Communications review the actions of personnel in the CMA office regarding
                 the deficiencies identified in this report, including controls over heritage assets
                 (Finding B), guest house furnishings (Finding C), and contracts using gift funds
                 (Finding D).             On the basis of that review, take appropriate management action,
                 including holding the necessary officials accountable.




                 	17	
                        A Report of Survey is an internal investigative process to locate or determine a final disposition of missing property.




20 │ DODIG-2013-138
                                                                                               Finding B



Management Comments on the Finding and Our
Response
Management Comments on Oversight of the U.S. Air Force
Academy Heritage Assets
The Director, NMUSAF, stated he does not resource the USAFA heritage program and
decisions for the establishment, operation, and sustainment of heritage programs are
performed at the organizational level based on manpower standards and work load
requirements. In addition, the NMUSAF Director stated that he did require the museum
specialist to complete wall-to-wall inventories of USAFA heritage assets; however, the
museum specialist did not do it.


Our Response
We disagree.    We understand that NMUSAF does not directly support the USAFA
Heritage Program. However, USAFA Heritage Program assets are classified as Historical
Holdings according to AFI 84-103, “U.S. Air Force Heritage Program,” October 27, 2004.
Further, AFI 84-103 states that NMUSAF is responsible for the care and management of
all Air Force historical property, including historical holdings. In addition, NMUSAF did
not provide any staff assistance to the USAFA Heritage Program until 2011. Specifically,
the NMUSAF Director granted an extension in 2007 and a temporary exemption in 2009
to the former museum specialist for a wall-to-wall inventory, but it was never completed.
A comprehensive wall-to-wall inventory was finally completed in April 2013.


Recommendations, Management Comments, and Our
Responses
Recommendation B.1
We recommend that the USAFA Superintendent delegate acceptance authority for
heritage assets to the USAFA Museum Specialist or other individuals as appropriate.


Superintendent, U.S. Air Force Academy Comments
The Superintendent, USAFA, agreed, stating that the museum specialist has been
appointed as the historical property custodian for historical property at USAFA in
accordance with AFI 84-103, “U.S. Air Force Heritage Program,” October 27, 2004.
In addition, specific acceptance authority for heritage assets will be added to
USAFAI 51-601, “USAF Academy Management and Use of Gift Funds,” January 5, 2011,
for the museum specialist. USAFAI 51-601 will be revised by December 31, 2013.




                                                                                        DODIG-2013-138 │ 21
Finding B



                 Our Response
                 The USAFA Superintendent’s comments were responsive and no further comments are
                 required.


                 Recommendation B.2
                 We recommend that the USAFA Director of Communications:

                                a.	 Review the actions of personnel in the CMA office regarding the
                                    deficiencies identified in this report, including controls over heritage
                                    assets (Finding B), guest house furnishings (Finding C), and contracts
                                    using gift funds (Finding D).                         On the basis of that review, take
                                    appropriate management action, including holding the necessary
                                    officials accountable.18

                 Director of Communications, U.S. Air Force Academy
                 Comments
                 The Superintendent, USAFA, responding for the Director of Communications, agreed,
                 stating that the director will review the actions of personnel in the Development and
                 Alumni Programs office regarding the deficiencies identified in the report and consider
                 any appropriate management actions which may be warranted. The review will be
                 completed by December 31, 2013.

                                b.	 Implement controls to ensure that AF Form 3571, “USAF Museum System
                                    Proffer of Gift Agreement,” and AF Form 3582, “USAF Museum System
                                    Accession Worksheet,” are completed and maintained for all heritage
                                    assets received.

                 Director of Communications, U.S. Air Force Academy
                 Comments
                 The Superintendent, USAFA, responding for the Director of Communications, agreed,
                 stating that Air Force Form 3571, “USAF Museum System Proffer of Gift Agreement,”
                 and Air Force Form 3582, “USAF Museum System Accession Worksheet,” are now
                 used for heritage assets received by USAFA. In addition, guidance and controls will
                 be implemented by December 31, 2013, to ensure that                                           the forms are prepared
                 in accordance with requirements of AFI 84-103, “Air Force Heritage Program,”
                 October 27, 2004.


                 	18	
                        Our audit identified weaknesses in controls and oversight of heritage assets (Finding B), guest house furnishings inventory
                        (Finding C), and gift fund contracts (Finding D). We do not make an accountability recommendation in each finding as this
                        serves as the accountability recommendation for the entire report.


22 │ DODIG-2013-138
                                                                                              Finding B



        c.	 Implement controls to ensure that all heritage assets are recorded in
           AFMATS in accordance with Air Force Instruction 84-103, “Air Force
           Heritage Program,” October 27, 2004.   Specifically, the Director of
           Communications should implement controls to ensure that:

             1.	 the accession register includes photographs;

             2.	 photographs include an accession number;

             3.	the accurate heritage asset condition is in the Air Force Museum
                Artifacts Tracking System; and

             4.	 all heritage assets are assigned a permanent accession number.

Director of Communications, U.S. Air Force Academy
Comments
The Superintendent, USAFA, responding for the Director of Communications, agreed,
stating that all recent acquisitions are recorded in AFMATS in accordance with
AFI 84-103, “Air Force Heritage Program,” October 27, 2004. The USAFA Superintendent
also stated that future acquisitions of heritage assets will be recorded in AFMATS in
accordance with AFI 84-103, and controls will be implemented to ensure heritage assets
are recorded properly. All heritage assets will be recorded in AFMATS by June 30, 2014.

        d.	Take appropriate action as determined by the resource requirement
           review.

Director of Communications, U.S. Air Force Academy
Comments
The Superintendent, USAFA, responding for the Director of Communications, agreed,
stating that after the manpower study is completed, leadership support will be requested
to fund any additional validated positions. The manpower study and request for any
positions will be completed by December 31, 2013.

        e.	Perform a review and analysis of the USAFA Heritage Program to
           determine the most efficient and effective processes and procedures for
           accepting, recording, reporting, and conserving heritage assets.




                                                                                       DODIG-2013-138 │ 23
Finding B



                  Director of Communications, U.S. Air Force Academy
                  Comments
                  The Superintendent, USAFA, responding for the Director of Communications, agreed,
                  stating that a review and analysis of the USAFA heritage program will be conducted
                  to determine if any additional processes and procedures are needed in addition to
                  the requirements in AFI 84-103, “Air Force Heritage Program,” October 27, 2004 and
                  AFI 84-104, “Art Program,” January 1, 2006. A review and analysis of the heritage
                  program will be completed by December 31, 2013.

                          f.	 Based on the results of the review and analysis of the USAFA Heritage
                              Program, develop and implement processes and standard operating
                              procedures for accepting, recording, reporting, and conserving heritage
                              assets.

                  Director of Communications, U.S. Air Force Academy
                  Comments
                  The Superintendent, USAFA, responding for the Director of Communications, agreed,
                  stating that USAFA will develop processes and standard operating procedures for
                  accepting, recording, reporting, and conserving heritage assets. Any new processes and
                  procedures will be completed by December 31, 2013.


                  Our Response
                  The USAFA Superintendent’s comments were responsive and no additional comments are
                  required.


                  Recommendation B.3
                  We recommend that the National Museum of the U.S. Air Force, Director:

                          a.	Conduct a formal search for the missing items from the Humiston
                              Prisoner of War collection and take action as required by AFI 84-103,
                              “Air Force Heritage Program,” October 27, 2004.

                  Director, National Museum of the U.S. Air Force Comments
                  The Director, NMUSAF, agreed, stating that a formal search was conducted for the
                  missing items from the Humiston Prisoner of War Collection. USAFA completed its
                  biennial inventory and returned the loan agreement to NMUSAF. NMUSAF curators
                  completed a wall-to-wall inventory of items located at the national museum in
                  January 2013, and re-verified that the missing Humiston artifacts were not returned.



24 │ DODIG-2013-138
                                                                                             Finding B



The senior curator completed research of market and commercial sources and established
values for the missing artifacts so that a Report of Survey can be processed. Once this
process is completed, the items will be removed from the account and deaccessioned
from the U.S. Air Force national historical collection in accordance with procedures
contained in AFI 84-103, “Air Force Heritage Program,” October 27, 2004.

        b.	 Perform oversight of USAFA’s inventory of heritage assets until USAFA’s
            entire inventory of heritage assets are properly accepted, recorded, and
            reported.

Director, National Museum of the U.S. Air Force Comments
The Director, NMUSAF, agreed, stating that actions have been taken to oversee the
inventory of heritage assets at USAFA. The director stated that USAFA completed its
biennial inventory and returned the loan agreement to NMUSAF. In addition, USAFA
uses AFMATS to record location changes and new acquisitions. NMUSAF curators verify
this information as it is received from USAFA and are working to reconcile the findings
from the inventory process. Additionally, NMUSAF curators continue to provide guidance
and oversight to USAFA including the need for establishing legal acceptance for new
accessions and the completion of Air Force Form 3571, “USAF Museum System Proffer of
Gift Agreement.”


Our Response
The NMUSAF Director’s comments were responsive and no additional comments are
required.




                                                                                      DODIG-2013-138 │ 25
Finding C




                  Finding C
                  Guest House Furnishings Lacked Internal Controls
                  USAFA did not have adequate records for guest house furnishings purchased with
                  monetary gifts. This occurred because the USAFA Superintendent did not appoint the
                  appropriate property accountability personnel to manage, record, and inventory guest
                  house furnishings including pilferable items. In addition, the USAFA Superintendent
                  did not establish SOPs to implement DoD and Air Force guidance for recording and
                  inventorying guest house furnishings including pilferable items. As a result, the guest
                  house furnishings are subject to misuse, loss, and theft.



                 Guest House Furnishings Purchased With Monetary
                 Gifts
                 USAFA owns two guest houses located on the grounds of the USAFA Superintendent’s
                 residence. Some of the furnishings, including pilferable items, located within the houses
                 were purchased with monetary gifts and are therefore required to be accounted for and
                 inventoried in accordance with DoD and Air Force accountable property criteria. DoD
                 Instruction 5000.64, “Accountability and Management of DoD Equipment and Other
                 Accountable Property,” May 19, 2011, defines pilferable items as property that has a
                 ready resale value or application to personal possession and that are, therefore, especially
                 subject to theft.


                 Lack of Adequate Property Records for Guest House
                 Furnishings
                 USAFA did not have adequate property records for guest house
                 furnishings, including pilferable items purchased with                    The
                                                                                        museum
                 monetary gifts. For example, the museum specialist’s
                                                                                     specialist’s and
                 and the enlisted aide’s inventory records were neither            the enlisted aide’s
                 current nor recorded the conditions of the property.              inventory records
                 DoD Instruction 5000.64 requires that accountable                were neither current
                                                                                    nor recorded the
                 property records be established for pilferable items.
                                                                                    conditions of the
                 Further, AFI 23‑111, “Management of Government                         property.
                 Property in the Possession of the Air Force,” January 7, 2011,
                 states that commanders/directors, supervisors, and subordinates must accurately
                 maintain property records to reflect current inventory and condition of property.




26 │ DODIG-2013-138
                                                                                                  Finding C



The former museum specialist and the USAFA Superintendent’s enlisted aide were
responsible for overseeing guest house furnishings purchased with monetary gifts,
including pilferable items.    The museum specialist’s position description required
that he maintain an inventory of the guest house furnishings, including pilferable
items. To track guest house furnishings, he developed the Local Collection database in
Microsoft Access to maintain an inventory of these items. The enlisted aide stated
that she was also responsible for maintaining records of guest house furnishings and
developed a Microsoft Excel spreadsheet to track and maintain an inventory of these
items.

We compared the museum specialist’s Local Collection database to the Enlisted
Aide’s inventory spreadsheet and found that the records did not match. We identified
104 items recorded in the former museum specialist’s database that were not recorded
on the enlisted aide’s spreadsheet. In addition, 129 items that were recorded on the
enlisted aide’s spreadsheet were not recorded in the former museum specialist’s
database. The former museum specialist stated that he did not record all low-cost,
expendable guest house furnishings in his Local Collection database, which may have
contributed to the discrepancies in the inventory records. He stated that the enlisted
aide might be recording the items; however, he believed it was unnecessary to do so. In
addition, he was unable to maintain a current inventory because the enlisted aide rarely
informed him of new purchases or changes in the inventory items. Furthermore, the
former museum specialist stated that he was unable to conduct adequate semiannual
inventories, as required by AFI  32-6004, “Furnishings Management,” March 3, 2006.
AFI 32-6004 states that pilferable items must be inventoried semiannually. The museum
specialist explained that he could not conduct these inventories because the enlisted
aide rarely granted him access to the guest houses, which he also felt contributed to the
discrepancies.

During our interview, the enlisted aide stated that she was required to keep an inventory of
only the guest house furnishings purchased with monetary gifts. In addition, the enlisted
aide believed that a physical inventory of the guest house furnishings was required only
when official guests visited. The enlisted aide stated that there had been no official guest
visits since she assumed her position and therefore had not been required to perform a
physical inventory. During our physical inventory walk‑through of the guest houses, we
observed that the enlisted aide had recorded some of the low‑cost or expendable items,
but not all, which may account for some of the inventory discrepancies. Furthermore, we
found that the former museum specialist and the enlisted aide were sometimes recording
items differently. For example, in one case, the museum specialist recorded a guest house
furniture piece as a rustic iron occasional table. The same table was recorded by the



                                                                                           DODIG-2013-138 │ 27
Finding C



                 enlisted aide as a small glass and metal side table. Since each official recorded items
                 using their own description rather than a standardized term, this created discrepancies
                 in the inventory records. We determined that, based on the inaccuracies in each of the
                 inventories and the lack of a recorded condition, adequate property records of the guest
                 house furnishings did not exist. The USAFA Superintendent should conduct a physical
                 inventory of the guest house furnishings, including pilferable items, to establish a baseline
                 of guest house furnishings.


                 Lack of Appropriate Property Accountability Personnel
                 and Standard Operating Procedures
                 The USAFA Superintendent did not appoint the appropriate property accountability
                 personnel to manage, record, and inventory guest house furnishings including pilferable
                 items. In addition, the USAFA Superintendent did not establish standard operating
                 procedures to implement Air Force guidance for recording and inventorying guest house
                 furnishings including pilferable items.


                 Lack of Appropriate Property
                 Accountability Personnel
                 Instead of formally appointing an Accountable Property                Instead of
                 Officer (APO), Responsible Officer (RO), and property            formally appointing
                 custodian, USAFA officials required the museum                an APO, RO, and property
                                                                               custodian, USAFA officials
                 specialist and the enlisted aide to maintain inventory
                                                                                 required the museum
                 records of guest house furnishings as an additional           specialist and the enlisted
                 duty. The museum specialist and the enlisted aide                  aide to maintain
                 may not have been the appropriate persons to perform              inventory records.
                 the property duties for the guest house furnishings.

                 DoD Instruction 5000.64 and AFI 23-111 state that APOs and property custodians must
                 be appointed or designated in writing. Each criterion requires the APO to maintain
                 property records and financial records, and requires the property custodian to be
                 responsible for the physical custody of accountable property under their control. In
                 addition, AFI 23-111 requires that a RO be appointed in writing and to exercise custody,
                 care, and safekeeping over property entrusted to his or her possession or under his or
                 her supervision. Furthermore, DoD Instruction 5000.64 states that all persons entrusted
                 with the management of Government property shall possess and continually demonstrate
                 an appropriate level of competence and proficiency in property accountability and
                 management. DoD Instruction 5000.64 also requires that all persons entrusted with




28 │ DODIG-2013-138
                                                                                                                               Finding C



Government property are made aware of and understand their responsibilities, which
includes proper care and stewardship, as well as potential legal ramifications for misuse
or loss.

The museum specialist was using a personally created access database to maintain
inventory records of the guest house furnishings, including pilferable items rather than
an established accountable property system of record (APSR). DoD Instruction 5000.64
states that the heads of the DoD Components shall establish APSRs and ensure the
integration with core financial and other systems and processes. The museum specialist’s
personally created access database did not interface with any other systems, and
therefore may not have been the most appropriate tracking mechanism for guest
house furnishings.                Further, the former museum specialist disagreed with his
responsibilities and stated that he was primarily hired as a museum specialist and was
responsible for maintaining all of USAFA’s heritage assets. The majority of his duties,
as laid out in his position description, were to manage the historical artifacts and art
collection. His role in overseeing the guest house furnishings was an additional duty and
based on all of these factors, he was not the most appropriate person to perform the
property duties for the guest house furnishings.

The enlisted aide, according to the USAFA Asset Management Division Chief, was
the primary facility manager for the guest houses, and was required to follow the
requirements listed in the USAFA Facility Management Handbook.19                                         The Facility
Management Handbook states that the facility manager is responsible for the care, custody,
and protection of a facility; personnel assigned in it; and associated real property. Facility
managers are also responsible for maintaining a file for each facility in their custody to
include all records pertaining to the facility. Based on the assigned duties of the enlisted
aide, USAFA required her to perform duties of an RO and property custodian without
formally designating her as an RO or property custodian in writing. The enlisted aide
was also using a personally created Microsoft Excel spreadsheet to maintain inventory
records of the guest house furnishings including pilferable items, rather than an APSR
system, as required by DoD Instruction 5000.64. The enlisted aide’s spreadsheet did not
interface with any other systems, and therefore may not have been the most appropriate
tracking mechanism for guest house furnishings. Based on the enlisted aide’s duties and
the lack of a formal APSR, the enlisted aide was not the correct person to be maintaining
inventory records of the guest house furnishings.




	19	
       The USAFA Asset Management Division Chief referred to the Customer Service Handbook as the Facility Management
       Handbook. The handbook was completed for USAFA through a contract with CH2MHill Academy Services, LLC.




                                                                                                                        DODIG-2013-138 │ 29
Finding C



                 While responsibilities were assigned to the former museum specialist and the enlisted aide
                 for guest house furnishings, an appropriate APO, RO, and property custodian should have
                 been appointed. The APO, RO, and property custodian should also have the appropriate
                 level of competence and proficiency designated to manage guest house furnishings.
                 As a result, without appropriate property accountability personnel appointed, USAFA
                 increases its risk that guest house furnishings, including pilferable items, will be misused,
                 lost, and stolen. The USAFA Superintendent should appoint an APO, RO, and Property
                 Custodian to manage the guest house furnishings.


                 Lack of Standard Operating Procedures
                 The USAFA Superintendent did not establish SOPs to implement DoD and Air Force
                 guidance for recording and inventorying guest house furnishings including pilferable
                 items. Without SOPs, USAFA staff did not have guidance on how to properly account
                 for guest house furnishings. In addition, the museum specialist and enlisted aide were
                 maintaining separate and irreconcilable inventory records. As a result, no accurate
                 inventory existed of the guest house furnishings, which made the items subject to
                 misuse, loss, and theft. The USAFA Superintendent should establish standard operating
                 procedures in accordance with DoD Instruction 5000.64, AFI 23-111, and AFI 32-6004
                 for managing guest house furnishings including pilferable items.


                 Management Actions Taken to Perform an Initial
                 Inventory of Guest House Furnishings
                 USAFA officials stated that as of June 2013, an initial inventory of guest house furnishings,
                 including pilferable items, was accomplished by the CMA Chief in coordination with the
                 museum specialist and the enlisted aide. A comprehensive inventory will be conducted
                 at the change of occupancy at the Carlton House.


                 Recommendations, Management Comments, and Our
                 Responses20
                 Recommendation C.1
                 We recommend that the U.S. Air Force Academy Superintendent:

                               a.	 Conduct a physical inventory of the guest house furnishings, including
                                   pilferable items to establish a baseline of guest house furnishings.

                 	20	
                        In Finding B, we made an accountability recommendation for the USAFA Director of Communications to review, among
                        other recommendations, the actions of the USAFA personnel responsible for not having adequate records for guest house
                        furnishings. As a result of the overarching accountability recommendation in Finding B, we are not making a separate
                        accountability recommendation in this finding.


30 │ DODIG-2013-138
                                                                                              Finding C



Superintendent, U.S. Air Force Academy Comments
The Superintendent, USAFA, agreed, stating that an inventory of guest house furnishings,
including pilferable items, was accomplished by the Chief, Development and Alumni
Programs in coordination with the museum specialist and the enlisted aide. In addition,
a comprehensive inventory of guest house furnishings was conducted in July 2013. The
USAFA Superintendent advised that physical inventories will be conducted in accordance
with Air Force guidance.

        b.	 Appoint an accountable property officer for guest house furnishings.

Superintendent, U.S. Air Force Academy Comments
The Superintendent, USAFA, agreed, stating that an accountable property officer will be
appointed in accordance with DoD and Air Force guidance. The appointments will be
completed by September 30, 2013.

        c.	 Appoint a responsible officer for guest house furnishings.

Superintendent, U.S. Air Force Academy Comments
The Superintendent, USAFA, agreed, stating that a responsible officer will be appointed
for guest house furnishings. This appointment will be completed by September 30, 2013.

        d.	 Appoint a property custodian for guest house furnishings.

Superintendent, U.S. Air Force Academy Comments
The Superintendent, USAFA, agreed, stating that a property custodian for guest
house furnishings will be appointed.       This appointment will be completed by
September 30, 2013.

        e.	Establish standard operating procedures in accordance with DoD
           Instruction     5000.64,   “Accountability   and   Management      of   DoD
           Equipment and Other Accountable Property,” May 19, 2011; Air Force
           Instruction 23-111, “Management of Government Property in Possession
           of the Air Force,” January 7, 2011; and Air Force Instruction 32-6004,
           “Furnishings Management,” March 3, 2006, for managing guest house
           furnishings including pilferable items.

Superintendent, U.S. Air Force Academy Comments
The Superintendent, USAFA, agreed, stating that standard operating procedures will be
developed by December 31, 2013.



                                                                                       DODIG-2013-138 │ 31
Finding C



                 Our Response
                 The USAFA Superintendent’s comments were responsive and no further comments
                 are required.




32 │ DODIG-2013-138
                                                                                                                                             Finding D




Finding D
USAFA Inappropriately Awarded Contracts
USAFA Development and Alumni Programs (CMA) officials inappropriately entered into
seven contracts and issued two contract modifications using monetary gifts without
proper authority. This occurred because USAFA CMA officials were unaware that the
FAR and GAO criteria applied to gift fund contracts. In addition, USAFA criteria on the
use of gift funds conflicts with GAO criteria. As a result, USAFA CMA officials created
unauthorized contracting actions valued at approximately $387,000.



USAFA Personnel Lacked Proper Authority to Sign
Contracts
USAFA CMA officials inappropriately awarded seven contracts and issued two contract
modifications using monetary gifts without proper authority.21 Specifically, CMA officials
                                       awarded and administered contracts and modifications without
               CMA                           contract warrants and contracting authority as required
              officials                         by the FAR Subpart 1.601  (a), “Career Development,
           awarded and                            Contracting Authority, and Responsibilities.”22 USAFA
       administered contracts
         and modifications                        officials were unable to provide documentation showing
          without contract                        that the individuals who authorized the contracts
           warrants and                           and modifications had authority to enter into these
            contracting
                                                 contracting actions.23 FAR subpart 1.601 (a) specifically
             authority.
                                             states that only contracting officers can enter into and
                                      sign Government contracts. Based on this FAR guidance, CMA
officials should not have signed the gift fund contracts; instead, contracting officers should
have signed and administered the contracts.

The contracting actions included two contracts and two modifications for social decorum,24
a contract for scholarship of teaching and learning, a contract for a just‑in‑time teaching
digital library, a contract for just‑in‑time teaching, and two contracts for the center for


	21	
       Two additional modifications for contracts with gift funds were appropriately signed by a contracting officer.
	22	
       The FAR also states that contracting officers may only bind the Government to the extent of the authority delegated to
       them.
	23	
       Contracting officers shall be appointed in writing on an SF 1402 Certificate of Appointment. An SF 1402 Certificate of
       Appointment is a warrant and provides the contracting officer with legal authority to sign contracts on behalf of the
       Government.
	24	
       Social decorum is the act of teaching cadets proper etiquette and the correct protocol for social and business situations as
       well as the skills needed to succeed in the U.S. Air Force and in life.




                                                                                                                                      DODIG-2013-138 │ 33
Finding D



                 oral history. Table 1 below summarizes the seven contracts and two modifications that
                 were inappropriately awarded by CMA officials.

                 Table 1. Gift Fund Contracts Inappropriately Awarded
                                                                                                Not-To-Exceed
                        Contract and Modification       Performance Periods   Contract Amount     Amount
                      Social Decorum 2 (Continuation      10/2009-9/2010          $83,879        $200,000
                      of Social Decorum Contract 1)
                               Modification 3             7/2011-12/2011           14,890          50,000
                       Subtotal                                                   $98,769
                      Social Decorum 3                    4/2011-6/2011             7,898          12,000
                               Modification 1             7/2011-12/2011           11,565          35,000
                       Subtotal                                                   $19,463
                      Scholarship of Teaching and         3/2009-3/2012           105,625         200,000
                      Learning
                      Just-in-Time Teaching Digital       3/2009-3/2012            73,670         200,000
                      Library
                      Just-in-Time Teaching               3/2010-4/2012             3,864          48,000
                      Oral History 1                      6/2010-6/2011            68,208         113,400
                      Oral History 2
                      (Continuation with Oral History     6/2011-6/2012            17,376         113,400
                      1 contractor)
                       Total                                                     $386,975

                 Source: United States Air Force Academy


                 Air Force Policy Conflicts with Federal Guidelines
                 CMA officials signed contracts and modifications themselves because they thought
                 they were in compliance with gift fund criteria. Specifically, they believed that because
                 USAFAI  51-601 states that gift funds are neither appropriated nor nonappropriated
                 funds, the rules for appropriated fund contracting in the FAR were not applicable to
                 the contracts that they were administering. While the FAR guidance does not state gift
                 funds are appropriated funds, GAO Office of the General Counsel, “Principles of Federal
                 Appropriations Law,” 3rd edition, volume II, February 2006, states “gift funds constitute
                 appropriated funds unless Congress provides otherwise.” Therefore, USAFAI 51-601
                 conflicts with GAO guidance. While GAO guidance and opinions are not binding on DoD,
                 the GAO guidance provides persuasive guidelines for classifying gift funds as appropriated
                 funds. USAFAI 51‑601 guides the management and use of gift funds and references this
                 same GAO guidance as the basis for requiring the superintendent and his designated
                 leaders to determine whether the expenditure of gift funds is necessary to further a USAFA




34 │ DODIG-2013-138
                                                                                                                                Finding D



purpose. Because USAFA officials used the GAO guidance to develop internal controls for
the expenditure of gift funds, we concluded that USAFA should have consistently applied
the GAO guidance and treated gift funds as appropriated funds, unless Congress provides
otherwise. FAR Subpart 1.1, “Purpose, Authority, Issuance,” provides uniform policies
and procedures for acquisition through the use of appropriated funds by all executive
agencies.         Therefore, the FAR, guides contracting with gift funds based on GAO’s
determination that gift funds constitute appropriated funds.

The USAFA Director of Staff, Commandant of Cadets, stated that during recent efforts to
solicit for gift fund contracts, the 10th Contracting Squadron did not think they should
sign a gift fund contract because they believed that their warrants limited them to
awarding and administering appropriated fund contracts.                                      As discussed above,
USAFAI 51‑601 contradicts GAO guidance.                            Despite the unclear and contradictory
guidance, USAFA’s Judge Advocate General recently advised the contracting office that
their warrants covered all Government funds. The contracting officers’ warrants are
issued in conformance with the FAR, which applies to appropriated funds. Therefore,
based on the determination that the warrants cover gift funds and are bound by the
requirements in the FAR, the funds should be considered appropriated funds. The
USAFA CMA Chief should revise USAFAI 51-601, to state that gift funds constitute
appropriated funds unless Congress provides otherwise, and the FAR is the
applicable guidance for contracting with gift funds. This revision should also remove
the language that gift funds are neither appropriated nor nonappropriated funds.

As a result of the conflicting criteria, CMA officials created unauthorized contracting
actions or unauthorized commitments25 totaling $386,975 for the Government. The
Government can, if appropriate, ratify the contracts. FAR 1.602-3 defines ratification
as the “act of approving an unauthorized commitment by an official who has authority
to do so.” In June 2013, USAFA officials reported that the 10th Contracting Squadron
conducted an analysis of these contracting efforts in February 2013, and determined
that the services were provided and accepted for a Government bona fide need and the
prices paid were fair and reasonable. To ensure that the contracts are in compliance
with the FAR, the 10th  Contracting Squadron Director or a properly warranted
contracting officer should ratify the contracts and modifications signed by
CMA officials.




	25	
       An unauthorized commitment is an agreement that is not binding solely because the Government representative who
       initiated it lacked the authority to enter into that agreement on behalf of the Government.




                                                                                                                         DODIG-2013-138 │ 35
Finding D



                 Management Actions Underway to Properly Award and
                 Administer Contracts
                 USAFA’s Staff Judge Advocate Chief advised the 10th Contracting Squadron, in January 2012,
                 that they were authorized to award and administer contracts that used gift funds. Based
                 on our audit results, CMA officials are working in coordination with the 10th Contracting
                 Squadron to oversee gift fund contracts. Specifically, the 10th Contracting Squadron will
                 award and sign the contracts. An appropriate contract official signed and administered
                 the FY 2012 “Social Decorum” contract.


                 Recommendations, Management Comments, and Our
                 Responses26
                 Recommendation D.1
                 We recommend the USAFA, Development and Alumni Programs Chief revise
                 USAFA Instruction 51-601, “USAF Academy Management and Use of Gift Funds,”
                 January 5, 2011, to state that gift funds constitute appropriated funds unless
                 Congress provides otherwise, and the Federal Acquisition Regulation is the
                 applicable guidance for contracting with gift funds. This revision should also
                 remove the language that gift funds are neither appropriated nor nonappropriated
                 funds.


                 Chief, Development and Alumni Programs, U.S. Air Force
                 Academy Comments
                 The Superintendent, USAFA, responding for the Development and Alumni Programs
                 Chief, agreed, stating that personnel will revise USAFAI 51-601, “USAF Academy
                 Management and Use of Gift Funds,” January 5, 2011, to clarify that gift funds
                 are appropriated funds. In addition, USAFAI 51-601 will be revised to clarify the
                 applicability of the FAR when contracting with gift funds. USAFAI 51-601 will be
                 revised by December 31, 2013.


                 Our Response
                 The USAFA Superintendent’s comments were responsive and no additional comments are
                 required.


                 	26	
                        In Finding B, we made an accountability recommendation for the USAFA Director of Communications to review, among
                        other recommendations, the actions of the USAFA personnel responsible for inappropriately awarding contracts using
                        monetary gifts. As a result of the overarching accountability recommendation in Finding B, we are not making a separate
                        accountability recommendation in this finding.




36 │ DODIG-2013-138
                                                                                            Finding D



Recommendation D.2
We recommend that the USAFA 10th Contracting Squadron Director or a properly
warranted contracting officer ratify the contracts and modifications signed by
Development and Alumni Program officials.


Director, 10th Contracting Squadron, U.S. Air Force Academy
Comments
The Superintendent, USAFA, responding for the Director, 10th Contracting Squadron,
agreed, stating that the 10th Contracting Squadron analyzed these contracting efforts
and they determined that the services were provided and accepted for a bona fide need
and the prices paid were fair and reasonable. A legal review of each contract will be
conducted and ratification documentation will be included in each file. The review and
any necessary ratification documentation will be completed by December 31, 2013.


Our Response
The USAFA Superintendent’s comments were responsive and no additional comments are
required.




                                                                                     DODIG-2013-138 │ 37
Finding E




                 Finding E
                 NAFIs Inappropriately Solicited, Accepted, Recorded,
                 and Reported Monetary Gifts
                 AFAAA personnel inappropriately solicited, accepted, recorded, and reported over
                 $532,000 in monetary gifts. In exchange for these gifts, AFAAA provided donors football
                 tickets, access to reserved parking lots, pre-game buffets, press box privileges, and
                 commemorative gifts. In addition, even if AFAAA was appropriately accepting such gifts,
                 accounting personnel did not differentiate between the value of the benefits given to the
                 donor and the actual charitable contribution. This occurred because AFAAA personnel
                 were not familiar with DoD and Air Force requirements prohibiting the solicitation of
                 gifts. In addition, the NAF Accounting Director stated that AFAAA accounting staff lacked
                 training and experience necessary to accurately record and report the donations. As a
                 result, the public may perceive that AFAAA gives donors special favors and privileges in
                 return for monetary gifts. More importantly, AFAAA may give the appearance that it has
                 compromised its integrity by soliciting donations and providing benefits. Furthermore,
                 AFAAA personnel overstated its monetary gift revenue in FY 2011 by over $532,000
                 because DoD and Air Force guidance prohibits the acceptance of solicited gifts.



                 Blue and Silver Club
                 The Blue and Silver Club is an Air Force football premium seating ticket program. Donors
                 give AFAAA money to join the Blue and Silver Club, and in return receive benefits such as
                 football tickets, access to reserved parking, pre-game buffets, press box privileges, and
                 commemorative gifts. The Blue and Silver Club’s membership consists of three categories:
                 Superintendent’s Club, Four-Star Club, and the Commander in Chief’s Club. The prices for
                 these membership levels range from $700 to $7,000. For example, one Blue and Silver
                 Club member contributed $7,000 and received $1,800 worth of football tickets, reserved
                 parking lot access, pre-game buffets, press box privileges, and commemorative gifts. See
                 Appendix E for the list of the benefits received for each of the three Blue and Silver Club
                 membership levels.


                 AFAAA Inappropriately Solicited and Accepted
                 Monetary Gifts
                 In FY 2011, AFAAA personnel inappropriately solicited and accepted over $532,000 in
                 monetary gifts for the Blue and Silver Club. In addition, in exchange for the monetary gifts,




38 │ DODIG-2013-138
                                                                                                                                      Finding E



AFAAA improperly provided donors with items such as season football tickets and other
benefits. AFAAA used contractor personnel to solicit27 monetary gifts for the Blue and
Silver Club. Specifically, AFAAA contract personnel prepared and published marketing
materials that promoted the Blue and Silver Club.28 The marketing materials identified
the price for each membership level and informed prospective donors that the payment
was “tax deductible to the extent permitted by law.” DoD and Air Force requirements
restrict AFAAA personnel from soliciting gifts and giving donors special favors or
privileges. Specifically, DoD FMR, volume 12, chapter 30, “Operation and Use of General
Gift Funds,” states that DoD personnel should not solicit, fundraise for, or otherwise
request or encourage the offer of a gift. FMR Chapter 30 also states that Acceptance
Authorities should not accept gifts offered contrary to this policy. AFI 34-201 USAFA
Supplement, “Use of Nonappropriated Funds (NAFS),” May 7, 2010, states that USAFA
NAFIs should not solicit contributions and monetary gifts, and should not grant the
donors any special favors or privileges.

AFAAA personnel inappropriately solicited and accepted monetary gifts because they
were not familiar with DoD and Air Force requirements related to the solicitation and
acceptance of gifts. As a result, AFAAA may give the public the impression that donors
receive special favors and privileges in exchange for monetary gifts and may give the
appearance that it has compromised the integrity of USAFA. The USAFA Superintendent
should require AFAAA personnel to cease soliciting and giving donors benefits in
exchange for monetary gifts. In addition, the USAFA Superintendent should require
AFAAA personnel to establish and implement a plan for recurring training on soliciting
and accepting monetary gifts.


AFAAA Incorrectly Recorded and Reported Gifts
AFAAA incorrectly recorded and reported over $532,000 in monetary gifts made to the
Blue and Silver Club. Even if AFAAA was appropriately accepting such gifts, accounting
personnel did not differentiate between the value of the benefits given to the donor and
the actual charitable contribution. Therefore, the value of the benefits received by Blue
and Silver Club members was incorrectly reported as part of the monetary gift. Benefits




	27	
       5 CFR sec. 2635.303 (2012) defines a solicitation as a request for a contribution through personal communication or by
       general announcement.
	28	
       AFAAA entered into two contracts to hire two individuals to assist the Department of Athletics. The contractors’
       responsibilities included promoting the Blue and Silver Club, executing partnership agreements, pursuing corporate sales,
       and planning broadcasting appearances, among other things. For FY 2011 the total value of these contracts was $238,309.
       The amounts for the different services under this contract were not separately stated. As a result, the amount that AFAAA
       spent to solicit the donations cannot be determined.




                                                                                                                               DODIG-2013-138 │ 39
Finding E



                 include football tickets, access to reserved parking lots, pre-game buffets, press box
                 privileges, and commemorative gifts.

                 We selected a nonstatistical sample of six monetary gifts, which represented $30,100 of
                 $532,000 that AFAAA received in FY 2011 for the Blue and Silver Club. We reviewed each
                 monetary gift and traced it to the applicable records to determine
                 whether NAF accounting personnel properly recorded and
                                                                                                          One Blue
                 reported the monetary gift. We found that NAF accounting
                                                                                                      and Silver Club
                 personnel did not differentiate between the value of the                            member donated
                 benefits given to the donor and the actual charitable                              $4,800 and received
                 contribution. According to AFAAA records, one Blue and                               $1,800 worth of
                                                                                                    benefits in exchange
                 Silver Club member donated $4,800 and received $1,800                               for the monetary
                 worth of benefits29 in exchange for the monetary gift. The                                 gift.
                 benefits included football tickets, access to reserved parking
                 lots, pre-game buffets, press box privileges, and commemorative
                 gifts. Therefore, for this gift, NAF accounting personnel should have recorded $1,800
                 as revenue for the sale of football tickets, reserved parking lot access, pre-game buffets,
                 press box privileges, and commemorative gifts, and $3,000 as a monetary gift. However,
                 AFAAA accounting personnel recorded and reported the entire payment of $4,800 as a
                 monetary gift. Since AFAAA recorded and reported the entire amount as a monetary gift,
                 it overstated its monetary gift revenue. Table 2 shows the total payment, the value of the
                 benefit received, and the value of the charitable contribution for each of the six monetary
                 gifts that we reviewed.

                 Table 2. Blue and Silver Club Transaction Benefits and Gifts
                                                                                                  Value of
                                           Sample             Total         Value of Benefits    Charitable
                                           Number           Payment             Received        Contribution
                                               1             $2,800                 $1,800        $1,000
                                               2               3,500                  900          2,600
                                               3               4,800                 1,800         3,000
                                               4               4,800                 1,800         3,000
                                               5               7,000                 1,800         5,200
                                               6               7,200                 2,700         4,500
                                           Total            $30,100             $10,800          $19,300




                 	29	
                        AFAAA determines the fair market value of these benefits.




40 │ DODIG-2013-138
                                                                                                Finding E



Financial Accounting Standards Advisory Board, Statement of Federal Financial
Accounting Concept (SFFAC) No. 2, “Entity and Display,” April 20, 1995, states that
gifts are monies and materials given by private persons and organizations to the
Government without receiving anything in exchange.          Therefore, the value of the
football tickets, reserved parking lot access, pre-game buffets, press box privileges, and
commemorative gifts the Blue and Silver Club members received does not meet the
definition of a gift. Because AFAAA provided these to the donor in exchange for a payment,
their value should have been classified as revenue to the AFAAA. NAF accounting personnel
for AFAAA should have recorded and reported $19,300 as a monetary gift rather than the
$30,100 that they recorded.

The NAF Accounting Director stated that the accounting staff did not separately record
the benefits the Blue and Silver Club members received as revenue from football ticket
and parking lot sales. The NAF Accounting Director stated this occurred because
the accounting staff lacked the training and experience necessary to properly record
and report monetary gifts. As a result, AFAAA overstated their monetary gift revenue
for FY  2011 by at least $10,800 for the six monetary gifts reviewed. The USAFA
Superintendent should require NAF accounting personnel to establish and implement a
plan for recurring training on recording and reporting monetary gifts.


Recommendations, Management Comments, and Our
Responses
Recommendation E.1
We recommend that the U.S. Air Force Academy Superintendent:

        a.	 Require Air Force Academy Athletic Association personnel to:

               (1)	 Cease soliciting and giving donors benefits in exchange for
                    monetary gifts.

               (2)	 Establish and implement a plan for recurring training on
                    soliciting and accepting monetary gifts.

Superintendent, U.S. Air Force Academy Comments
The Superintendent, USAFA, agreed with the intent of the recommendation stating that
on July 1, 2013, the AFAAA was converted into a nonprofit organization, which now runs
the Blue and Silver program and other former AFAAA revenue generating functions.
The USAFA Superintendent stated that this restructuring minimizes risk and the type




                                                                                         DODIG-2013-138 │ 41
Finding E



                 of solicitations identified in this audit. The USAFA Superintendent also stated that the
                 nonprofit organization will comply with all laws, regulations, and requirements. The
                 nonprofit organization will be evaluated through required Government audits. The
                 conversion to the nonprofit organization was completed in July 2013.

                         b.	Require Nonappropriated Fund accounting personnel to establish and
                             implement a plan for recurring training on recording and reporting
                             monetary gifts.

                 Superintendent, U.S. Air Force Academy Comments
                 The Superintendent, USAFA, agreed with the intent of the recommendation stating that
                 on July 1, 2013, the AFAAA was converted into a nonprofit organization, which now runs
                 the Blue and Silver program and other former AFAAA revenue generating functions.
                 This conversion eliminates the need for a reoccurring training plan because AFAAA is no
                 longer accepting gifts.   The nonprofit will comply with all laws, regulations, and
                 requirements. The nonprofit organization will be evaluated through required Government
                 audits. The conversion to a nonprofit organization was completed in July 2013.


                 Our Response
                 The USAFA Superintendent’s comments were responsive and no additional comments are
                 required.




42 │ DODIG-2013-138
                                                                                                                                          Finding F




Finding F
Nonmonetary Gifts of Services for Academic Chairs
Were Not Reported
USAFA adequately accepted, recorded, and reported all 21 nonmonetary gifts received in
FY 2011. In addition, the USAFA CMA appropriately transferred five of six30 nonmonetary
gifts of services received through volunteer gratuitous service agreements to the
Air Force General Counsel for review and acceptance. However, neither USAFA nor the
general counsel reported these nonmonetary gifts of services to DFAS. This occurred
because, while the DoD FMR, volume 12, chapter 30, “Operation and Use of General Gift
Funds,” requires the general counsel to report such gifts, the general counsel believed
USAFA was responsible for reporting these gifts since USAFA benefited from these gifts.
USAFA officials stated they did not report these six gifts because they were not the
authorizing authority. In addition, the DoD FMR did not clearly require entities to report
nonmonetary gifts of services, specifically, those received through volunteer gratuitous
service agreements to DFAS. As a result, neither USAFA nor the general counsel reported
at least $596,506 worth of nonmonetary gifts of services to DFAS.



USAFA Properly Accepted, Recorded, and Reported
Nonmonetary Gifts31 3031
We reviewed all 21 nonmonetary gifts that USAFA received in FY 2011 and found that
USAFA personnel accepted the nonmonetary gifts in accordance with AFI 51-601, “Gifts
to the Department of the Air Force,” November 26, 2003. Specifically, we determined
that acceptance letters and staff summary sheets existed for all 21 nonmonetary gifts.32
In addition, we traced all 21 nonmonetary gifts to the nonmonetary gift log spreadsheet
and verified that USAFA personnel properly recorded each gift. USAFA also reported the
21 nonmonetary gifts to the applicable office of primary responsibility.




	30	
       Neither the general counsel nor USAFA provided the acceptance package for the Erdle Chair. Because USAFA completed
       staff summary sheets and forwarded the five remaining packages, we concluded that USAFA had controls in place for
       transferring gifts of academic chairs to the general counsel for acceptance.
	31	
       This finding does not include our review of controls over nonmonetary gifts of heritage assets. Finding B details our review
       of controls over nonmonetary gifts of heritage assets.
	32	
       Staff summary sheets are generally used to summarize staff work, to request action, or to forward information.




                                                                                                                                  DODIG-2013-138 │ 43
Finding F



                 USAFA Properly Transferred Nonmonetary Gifts of
                 Services for Academic Chairs
                 USAFA CMA appropriately transferred nonmonetary gifts of services tendered through
                 volunteer gratuitous service agreements to the Air Force General Counsel for review and
                 acceptance. USAFA used these agreements for academic chairs, which are distinguished
                 visiting professors paid for by a nonprofit organization. AFI 51-601 states that gifts to fund
                 endowments, academic chairs, or to support visiting professors or other similar individuals
                 providing instruction to cadets must be approved by the Secretary of the Air  Force
                 or their designee. As requested by the Secretary of the Air Force’s designated official,
                 the Air Force General Counsel, USAFA completed staff summary sheets and forwarded five
                 of six gifts of service for academic chairs through volunteer gratuitous service agreements
                 from one nonprofit organization to the general counsel for acceptance. The Academic
                 Research and Development Institute33 offers the services of these professors to USAFA.
                 The Academic Research and Development Institute is responsible for compensating
                 these professors.


                 Nonmonetary Gifts of Services for Academic Chairs Not
                 Reported to DFAS
                 The Air Force General Counsel, designated as the acceptance authority of academic chairs
                 received by USAFA, did not report nonmonetary gifts of services totaling $489,00634
                 and accepted through volunteer gratuitous service agreements to DFAS as required
                 by DoD  FMR, volume 12, chapter 30. We confirmed these amounts by reviewing the
                 Academy Research and Development Institute tax return and obtaining clarification
                 from Academy Research and Development Institute officials. This analysis showed that
                 they contributed a total of $596,506 for six academic chairs for the benefit of USAFA.
                 Therefore, at least $596,506 in nonmonetary gifts of services was not reported to DFAS
                 and not included on the DoD agency-wide or Air Force financial statements. Table 3
                 shows a detailed breakdown of the academic chair, the purpose of the services provided,
                 and the associated cost of those services.




                 	33	
                        The Academy Research and Development Institute is a nonprofit organization that fosters academic excellence at USAFA. It
                        provides an avenue for educational grants and the endowment of academic department chairs.
                 	34	
                        USAFA did not report to the Air Force General Counsel $107,500 in services for the Erdle chair. Therefore, the general
                        counsel did not report this gift to DFAS.




44 │ DODIG-2013-138
                                                                                                                    Finding F



Table 3. Contributions to Fund Academic Chairs that Were Not Reported to DFAS
                    Academic Chair                                 Purpose                 Nonprofit Cost
 Ambassador Holland H. Coors Endowed Chair              Education Technology                 $118,337
 Brigadier General Philip J. Erdle Endowed Chair        Engineering Science                    107,500
 Schriever Chair                                        Space Systems Engineering              101,448
                                                        Economics of the Defense
 Anders Chair                                                                                   93,084
                                                        Industrial Base
 Coleman/Richardson Chair                               Computer Science                        88,638
 Lyon Chair                                             Professional Ethics                     87,499
  Total                                                                                      $596,506

Source: Academy Research and Development Institute


DoD FMR, volume 12, chapter 30, states gifts include devises or bequests, and money, real
property, personal property, or services. FMR Chapter 30 also states that the acceptance
authorities shall report the information in Table 4 to DFAS. The reporting requirement
applies to all monetary, real property, and personal property gifts with a unit value of
$5,000 or more. FMR Chapter 30 requires the reporting to DFAS no later than 10 days
after the end of each quarter.

Table 4. DFAS Quarterly Reports
                   1.   A description of the gift.
                        The value of the gift (estimated value if nonmonetary) to
                   2.   include the valuation method used.
                   3.   The name and address of the donor(s).
                   4.   The date each gift was received.
                        The expected useful life of the gift (the length of time in
                   5.   which a depreciable asset is expected to be used).
                        Details of any conditions, restrictions, or other relevant
                   6.   specific information regarding each gift.
                        If applicable, a unique identifier or data element used to track
                   7.   the same or similar nonmonetary items received or shipped
                        from different sources.
                   8.   Statement explaining the benefits of accepting the gift.
                   9.   The authority under which the gift was accepted.

                Source: DoD FMR, volume 12, chapter 30


Although DoD FMR volume 12, chapter 30 considers services to be a type of gift, it does
not clearly require entities to report nonmonetary gifts of services, specifically those gifts
received through volunteer gratuitous service agreements and used to fund academic



                                                                                                            DODIG-2013-138 │ 45
Finding F



                 chairs. However, it is not clear why acceptance authorities would be required to report the
                 value of monetary and real or personal property gifts to DFAS, but not gifts of services and
                 their value, specifically those accepted through volunteer gratuitous service agreements
                 and used to fund academic chairs. The Under Secretary of Defense (Comptroller)/Chief
                 Financial Officer, DoD, should revise the DoD FMR volume 12, chapter 30, to provide
                 guidance and instruction to acceptance authorities on reporting for nonmonetary gifts of
                 services to include guidance for those gifts received through volunteer gratuitous service
                 agreements.

                 General counsel officials stated that since USAFA was receiving the gift, they were
                 responsible for reporting the necessary information to DFAS.             However, USAFA
                 officials stated that they did not report the gifts of academic chairs to DFAS because
                 USAFAI 51‑601 does not delegate USAFA this authority and the general counsel had not
                 previously delegated USAFA this reporting responsibility. The USAFA CMA Chief should
                 coordinate with the Air Force General Counsel to develop a plan to ensure that gifts used
                 to fund endowments, academic chairs, or to support visiting professors or other similar
                 individuals providing instruction to cadets are reported, as appropriately determined by
                 the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, on a quarterly
                 basis to DFAS. The USAFA CMA Chief should coordinate with the Air Force General
                 Counsel to report the six nonmonetary gifts of services, valued at $596,506, to DFAS, if
                 determined appropriate by the Under Secretary of Defense (Comptroller)/Chief Financial
                 Officer, DoD.


                 Recommendations, Management Comments, and Our
                 Responses
                 Recommendation F.1
                 We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
                 Officer, DoD, revise the DoD Regulation 7000.14-R, “Financial Management
                 Regulation,” volume 12, chapter 30, “Operation and Use of General Gift Funds,”
                 to provide guidance and instruction to acceptance authorities on reporting for
                 nonmonetary gifts of services to include guidance for those gifts received through
                 volunteer gratuitous service agreements.


                 Under Secretary of Defense (Comptroller)/Chief Financial
                 Officer, DoD Comments
                 The Deputy Chief Financial Officer, responding for the Under Secretary of Defense
                 (Comptroller)/Chief Financial Officer, DoD, agreed, stating that the DoD FMR



46 │ DODIG-2013-138
                                                                                               Finding F



volume 12, chapter 30, “Operation and Use of General Gift Funds,” will be revised to
clarify the reporting requirement for nonmonetary gifts. Specifically, nonmonetary gifts
of services, which include volunteer gratuitous service agreements, will be added to the
reporting requirement in the next scheduled update.


Our Response
The OUSD(C)/CFO comments were responsive and no additional comments are required.


Recommendation F.2
We recommend that the USAFA Development and Alumni Programs (CMA) Chief
coordinate with the Air Force General Counsel to:

        a.	 Develop a plan to ensure that gifts used to fund endowments, academic
            chairs, or to support visiting professors or other similar individuals
            providing instruction to cadets are reported, as appropriately
            determined by the Under Secretary of Defense (Comptroller)/Chief
            Financial Officer, DoD, on a quarterly basis to Defense Finance and
            Accounting Service.

        b.	 Report the six nonmonetary gifts of services, valued at $596,506, to the
            Defense Finance and Accounting Service, if determined appropriate by
            the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
            DoD.

Chief, Development and Alumni Programs, U.S. Air Force
Academy Comments
The Superintendent, USAFA, responding for the CMA Chief, agreed, stating that
USAFA is awaiting guidance from the Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD, on how to report gifts of services to Defense Finance
and Accounting Service. USAFA will develop a plan to report all future gifts to fund
academic endowments and the six monetary gifts of services, valued at $596,506, to
the Defense Finance and Accounting Service in accordance with this guidance. The
new guidance will be implemented by December 31, 2013.


Our Response
The USAFA Superintendent’s comments were responsive and no additional comments are
required.




                                                                                       DODIG-2013-138 │ 47
Appendixes




                 Appendix A  
                 Scope and Methodology
                 We conducted this performance audit from August 2011 through July 2013 in accordance
                 with generally accepted government auditing standards. Those standards require that
                 we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
                 reasonable basis for our findings and conclusions based on our audit objectives. We believe
                 that the evidence obtained provides a reasonable basis for our findings and conclusions
                 based on our audit objectives. While some of the data in the report is from 2011, the audit
                 team verified that other than the corrective management actions discussed in the findings
                 of the report, control deficiencies still existed as of July 2013.

                 We reviewed the controls at USAFA for accepting, recording, and reporting gifts. Specifically,
                 we reviewed the controls and processes for accepting, recording, and reporting monetary
                 gifts, nonmonetary gifts (in-kind gifts), and nonmonetary gifts of heritage assets.

                             Monetary Gifts. We interviewed USAFA officials and reviewed applicable
                             criteria including AFI 51-601, AFI 51-601 USAFA Supplement, and
                             USAFAI 51-601 to identify the processes that should be used by USAFA officials
                             for accepting, recording, and reporting monetary gifts. We then developed
                             checklists to use in testing to determine whether USAFA complied with
                             Air Force criteria.      We obtained a Microsoft Excel spreadsheet from
                             USAFA CMA that listed 184 monetary gifts totaling $3.9 million that USAFA
                             received in FY 2011. We selected a nonstatistical sample of 25 monetary
                             gifts totaling $3.1 million using a random number generator. We obtained
                             supporting documentation, including acceptance letters and staff summary
                             sheets for the sampled items to determine whether USAFA properly accepted
                             these monetary gifts.      To determine whether these gifts were properly
                             recorded, we traced the 25 monetary gifts to the gift accounts. We obtained
                             DD  Forms 1131, “Cash Collection Voucher,” to determine whether USAFA
                             personnel properly reported the monetary gifts to the appropriate U.S.
                             Treasury account and notified DFAS of the monetary gift.

                             Nonmonetary Gifts.         We interviewed USAFA officials to identify the
                             processes in place for accepting, recording, and reporting nonmonetary gifts.
                             Additionally, we reviewed the requirements established within AFI 51-601
                             for processing nonmonetary gifts. We obtained an Adobe PDF file that listed
                             21 nonmonetary gifts totaling $946,775 that USAFA received in FY 2011. To




48 │ DODIG-2013-138
                                                                                    Appendixes



determine whether the 21 nonmonetary gifts were properly accepted, we
obtained and reviewed acceptance letters and staff summary sheets for each
nonmonetary gift. To determine whether the gifts were properly recorded, we
conducted interviews with the applicable office of primary responsibility staff.
To determine whether these items were properly reported, we conducted
interviews with the applicable office of primary responsibility staff to verify
that the gifts were properly reported to them.

Nonmonetary Gifts of Heritage Assets. The universe of heritage assets
consisted of approximately 5,000 assets in FY 2011.            We selected a
nonstatistical sample of 25 heritage assets from the USAFA Local Heritage
Collection database to test whether USAFA personnel accepted, recorded,
reported, and conserved these assets in accordance with AFI 84-103. We met
with USAFA’s former museum specialist to identify the processes in place for
accepting, recording, and reporting heritage assets.

We reviewed AFI 51-601 and AFI 84-103 to identify the requirements for
accepting heritage assets. In order to test whether the former museum
specialist had authority to accept heritage assets, we interviewed USAFA
personnel and requested delegation of authority documentation. To determine
whether USAFA properly accepted heritage assets, we requested required
acceptance documentation, including AF Form 3571 or DD Form  1149 for
each heritage asset.

To determine whether USAFA officials properly recorded and reported
heritage assets, we requested copies of the accession register, traced the
assets to AFMATS, and conducted physical inventories of all 25 heritage
assets. We compared our observations during the physical inventory to the
inventory records to determine whether a complete accession number was
listed, photographs were on file, and the location was properly recorded.
Additionally, to determine whether USAFA properly reported heritage assets,
we met with USAFA officials to determine whether required inventories of
heritage assets were performed and reported to NMUSAF as required by
AFI 84-103. Furthermore, we physically observed all 25 heritage assets to
determine if they were adequately protected against agents of deterioration,
destruction, and theft.




                                                                               DODIG-2013-138 │ 49
Appendixes



                 We also reviewed the controls at USAFA for disbursing monetary gifts.

                            Monetary Gifts. We conducted interviews and reviewed applicable criteria,
                            including USAFAI 51-601, to identify the processes USAFA CMA officials used
                            to disburse monetary gifts. CMA disbursed $6.5 million in monetary gifts
                            during FY 2011. We reviewed whether USAFA properly used $5,000,000
                            of $6,505,600 disbursed during FY 2011. Specifically, we obtained donor
                            documentation and compared the donors’ intent to the information reported
                            in the SF 1034, “Public Voucher for Purchase and Services Other Than
                            Personal.”

                 In addition, we reviewed and analyzed USAFA controls over contracts and purchases
                 using gift funds to determine whether they were in accordance with GAO and FAR criteria,
                 as applicable, DoDI 5000.64, AFI 23-111, AFI 32-6004, and USAFAI 51-601.

                            Contracts Using Gift Funds. We reviewed the entire universe of active
                            FY 2011 contracts that used gift funds, which was comprised of seven contracts
                            and four modifications. Total disbursements under the seven contracts and
                            four modifications were $457,805. We obtained and reviewed the contracts
                            and modifications to determine whether an appropriate USAFA contracting
                            officer signed these seven contracts and four modifications as required by
                            the FAR.

                            Purchase of Furnishings Using Gift Funds. We reviewed both the enlisted
                            aide and the former museum specialist’s inventory listing of guest house
                            furnishings as of January 2012. We compared the former museum specialists
                            Local Collection database (Microsoft Access) to the enlisted aide’s Microsoft
                            Excel spreadsheet of guest house furnishings to determine whether there
                            were any discrepancies between the two listings. We also conducted physical
                            inventories and compared our observations to the information recorded in
                            the inventories maintained by the former museum specialist and the enlisted
                            aide to determine the accuracy of the inventories.

                 We reviewed the controls at USAFA NAFIs for accepting, recording and reporting gifts.
                 Specifically, we determined whether NAFIs accepted, recorded, and reported monetary
                 and nonmonetary gifts in accordance with the DoD FMR and AFI 34-201 USAFA
                 Supplement. In addition, we assessed whether NAFIs recorded and reported monetary
                 and nonmonetary gifts in accordance with SFFAC No. 2 and SFAS No. 116.




50 │ DODIG-2013-138
                                                                                           Appendixes



           Monetary Gifts. We reviewed and analyzed an Adobe PDF file provided by
           USAFA officials that contained data from the Services Agency Information
           System (SAIS) of monetary gifts that the AFAAA Blue and Silver Club received
           during FY 2011. In FY 2011, AFAAA reported in SAIS that the Blue and Silver
           Club received over $532,000 in monetary gifts. We selected and reviewed
           a nonstatistical sample of six Blue and Silver Club transactions with the
           highest dollar value in May 2011; the month with the largest amount of
           monetary gifts received in FY 2011, totaling over $109,000 in monetary
           gifts. We reviewed the 5 CFR sec. 2635.303, SFFAC No. 2, DoD FMR, and AFI
           USAFA Supplement 34‑201 to identify criteria for accepting, recording, and
           reporting monetary gifts. We reviewed the Blue and Silver Club brochure, the
           terms of the contracts, and thank you letters to determine whether AFAAA
           personnel actions complied with the DoD FMR volume 12, chapter 30, and AFI
           USAFA Supplement 34‑201 requirements related to soliciting and accepting
           monetary gifts. To determine whether the gifts were properly recorded and
           reported, and NAF accounting personnel properly differentiated between the
           value of the AFAAA benefits given to the donor and the actual monetary gift,
           we requested and reviewed journal entries in SAIS and the thank you letters,
           and compared them to the requirements established in SFFAC No. 2.

           Nonmonetary Gifts. We reviewed one FY 2011 nonmonetary gift that
           the MWR Fund received to determine whether it was properly accepted,
           recorded, and reported in compliance with SFAS 116 and AFI 34-201
           USAFA Supplement. Specifically, we reviewed and analyzed the donor’s
           gift offer letter and USAFA’s acceptance letter to determine whether the
           nonmonetary gift was properly accepted in accordance with AFI 34-201
           USAFA Supplement. In addition, we interviewed the NAF accounting personnel
           to determine how they recorded and reported this transaction. We compared
           these processes to SFAS 116 to determine whether the nonmonetary gift was
           accurately recorded and reported.

We reviewed the NAF contracting procedures at USAFA for contracts funded with NAFs.
We requested a list of all NAF contracts that the 10th Contracting Squadron and the
10th Force Support Squadron contracting officers awarded during fiscal year 2011.
The 10th Force Support Squadron provided a Microsoft Excel spreadsheet and four
Adobe PDF files. These documents showed that during FY 2011, there were 401 NAFI
contracting actions with a total value of approximately $7.1 million. We selected a
nonstatistical sample of 36 contracting actions valued at approximately $3.8 million.
Specifically, we selected the 22 contracting actions with the highest value, valued at



                                                                                      DODIG-2013-138 │ 51
Appendixes



                 $3.6 million. In addition, we used a random number generator to select 14 contracting
                 actions below $50,000, valued at $195,096. We reviewed these 36 contracting actions to
                 determine whether a contracting officer signed the contract and obtained competitive
                 bids or provided a sole‑source justification. In addition, we tested whether these contracts
                 included the NAFI clauses required by AFMAN 64-302.

                 We reviewed USAFA supporting nonprofit organizations’ tax returns to determine
                 whether the amount of monetary and nonmonetary gifts they gave to USAFA matched
                 USAFA’s records.

                             Monetary Gifts. We calculated the total amount of monetary gifts that
                             USAFA’s six supporting nonprofit organizations donated from July 1, 2009
                             to December 31, 2010. We obtained this information from the nonprofit
                             organizations’ tax returns, and then compared the nonprofit organizations
                             total monetary gifts of approximately $5.9 million to what USAFA recorded
                             and reported in its receipt logs during the same period. We conducted this
                             comparison to determine whether USAFA properly recorded and reported the
                             gift amounts.

                             Nonmonetary Gifts. We reviewed USAFA’s supporting nonprofit organization
                             2010 tax return to identify nonmonetary transfers to USAFA. We identified
                             one nonprofit organization that provided nonmonetary gift of services to
                             USAFA. We reviewed the nonmonetary gift of services to determine whether
                             USAFA properly accepted, recorded, and reported these nonmonetary gifts of
                             service in accordance with the DoD FMR.


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this audit.


                 Use of Technical Assistance
                 The DoD Office of Inspector General Quantitative Methods Division assisted in selecting a
                 sample of monetary gifts.


                 Prior Coverage on Gift Policy and Procedures
                 During the last 5 years, the Government Accountability Office (GAO), Department
                 of Defense Inspector General (DoD IG), Naval Inspector General, the Commander,
                 Navy Installations Command, and the Air Force Audit Agency have issued six reports




52 │ DODIG-2013-138
                                                                                           Appendixes



discussing proper gifts and NAF procedures, NAFI operations, and contracting practices.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.
Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by personnel
with Common Access Cards.        Naval Inspector General and the Commander, Navy
Installation Command reports are not available over the internet.


GAO
GAO Report No. GAO-09-486R, “Financial Management: DOD Needs to Clarify Its
General Gift Fund Policies to Provide for Effective Oversight,” May 27, 2009


DoD IG
DoD OIG Report No. DODIG-2012-017, “U.S. Naval Academy Officials Did Not Adhere to
Contracting and Gift Policies,” November 7, 2011

DoD OIG Report No. DODIG-2010-081, "Army Use of Time-and-Materials Contracts in
Southwest Asia," August 27, 2010


Navy Inspector General
Naval Inspector General Report, “Senior Official Case 200801937; Alleged Misuse of
Gift Funds and Nonappropriated Funds (NAF),” November 17, 2009


Commander, Navy Installations Command
Commander, Navy Installation Command, “Fiscal Oversight Review of the United
States Naval Academy Non-Appropriated Fund Instrumentality,” April 9, 2010


Air Force
Air Force Audit Agency Report No. F2011-0012-FBM000, “Follow-up Audit
Intercollegiate Athletic Program Revenues and Expenditures Internal Control Review
Air Force Academy Athletic Association United States Air Force Academy CO,”
November 22, 2010




                                                                                      DODIG-2013-138 │ 53
Appendixes




                 Appendix B
                 NAFIs and Nonprofit Organizations Supporting USAFA
                 Nonappropriated Fund Instrumentalities
                 NAFIs are integral DoD organizations and fiscal entities that perform governmental
                 functions and enjoy the legal status of an instrumentality of the United States. NAFIs
                 act in their own name to assist other DoD organizations in providing Air Force Services
                 programs for military personnel and authorized civilians.

                 The USAFA has five NAFIs that were established prior to October 1, 1988.

                         •	 Air Force Academy Athletic Association Fund. This is a NAFI, authorized and
                            established for the purpose of providing supplemental support to the USAFA
                            athletic program and is financially managed by the USAFA Superintendent.
                            (See Finding A and Finding E)

                         •	 Air Force Lodging Fund. This is a supplemental mission support NAFI that
                            generates NAF revenues from service charges paid by authorized personnel
                            residing in lodging facilities, and from sundry sales, interest income,
                            concessions and other income.

                         •	 Cadet Dining Hall Fund. The purpose of this NAFI is to provide funding
                            for the purchase of subsistence inventory to support the cadet dining hall
                            operation, and is financially managed by the 10th Force Support Squadron.

                         •	 Morale, Welfare, and Recreation Fund. The major command approves the
                            establishment of the base morale welfare and recreation fund. This fund is
                            used to support morale, welfare, and recreation activities and programs at
                            the base level, and is financially managed by the 10th Force Support Squadron.
                            (See Finding A)

                         •	 Superintendent’s Mission Support Fund. The purpose of this fund is to
                            manage monies for the superintendent to be expended for materials, services,
                            and supplies in furtherance of the USAFA mission.




54 │ DODIG-2013-138
                                                                                           Appendixes



Nonprofit Organizations
USAFA depends on private funding to support military, academic, athletic, and character
development programs. Six nonprofit organizations support USAFA. These nonprofit
organizations include:

         •	 Academy Research and Development Institute,

         •	 Air Force Academy Foundation,

         •	 Falcon Foundation,

         •	 Friends of the Air Force Academy Library,

         •	 USAFA Association of Graduates, and

         •	 USAFA Endowment.

The USAFA Association of Graduates and the USAFA Endowment are discussed below.


USAFA Association of Graduates
The USAFA Association of Graduates was founded in 1968 and is a nonprofit organization
dedicated to serving the graduates and members, enhancing the heritage of the USAFA
and enriching the cadet experience by funding programs not supported by appropriated
funds.   The mission of the Association of Graduates is to serve and support the
United States of America, the U.S. Air Force, USAFA, and the graduate community by:

         •	 working in partnership with USAFA to produce and foster graduates with an
           enduring commitment to integrity, excellence, and service to country;

         •	 providing leadership, communication, and support to all USAFA graduates,
           and promoting camaraderie among them; and

         •	 promoting USAFA heritage, its common traditions, and the accomplishments
           of its graduates.

USAFA Endowment
The USAFA Endowment was founded in 2007 and is a nonprofit organization whose
mission is to provide efficient and perpetual stewardship of donated gifts to USAFA
to ensure their permanency and efficacy in accordance with the donor’s intent. The
Endowment works actively to identify and cultivate key relationships with current and
potential USAFA donors to support the USAFA Superintendent’s strategic priorities.




                                                                                      DODIG-2013-138 │ 55
Appendixes




Appendix C
Heritage Assets Not Properly Recorded
The table below summarizes the 25 heritage assets reviewed that were not properly recorded


                                                                                                                 Condition
                                                              Accession    AF Forms     AF Forms                of Heritage   Permanent
                                                               Register      3571         3582     Photograph      Asset      Accession
                                                              Completed   Completed1   Completed     on File     Reported      Number
              Sample Selection Item            Object Type     Yes/No      Yes/No       Yes/No      Yes/No       Yes/No        Yes/No

   1     F-16A Fighting Falcon                   Aircraft         N           N2           N           N            Y            N
   2     B-52 Stratofortress, BUFF               Aircraft         N           N2           N           N            Y            Y
   3     F-4 Phantom II                          Aircraft         N           N2           N           N            Y            Y
   4     F-105 Thunderchief, "Thud"              Aircraft         N           N2
                                                                                           N           N            Y            Y
   5     F-15 Eagle                              Aircraft         N           N2           N           N            Y            Y
   6     T-33 Model                             Airplane          N           N            N           N            N            N
   7     Pilot Wings                             Badge            N           N            N           N            Y            Y
   8     WTC 9/11 Memorial                       Beam             N           N            N           N            Y            Y
   9     Pre-Columbian Pottery                  Ceramic           N           N            N           N            Y            N
  10     Foreign Military Decoration–Brazil    Decoration         N           N            N           N            N            N
  11     Navajo                                  Jewelry          N           N            N           N            Y            Y
  12     Navajo                                  Jewelry          N           N            N           N            Y            N
  13     Japanese Lantern                        Lantern          N           N            N           N            N            N
  14     Adobe Building 2 horses                Painting          N           N            N           N            Y            Y
  15     Charlie Potatoes                       Painting          N           N            N           N            N            N
  16     Down at Grand Canyon                   Painting          N           N            N           N            N            Y
  17     D-Day Mission Returns                  Painting          N           N            N           N            Y            Y
  18     Humiston POW Collection              Miscellaneous       N           N            N           N            N            N


56 │ DODIG-2013-138
                                                                                                                                                      Appendixes



                                                                                                                        Condition
                                                                Accession     AF Forms      AF Forms                   of Heritage   Permanent
                                                                 Register       3571          3582      Photograph        Asset      Accession
                                                                Completed    Completed1    Completed      on File       Reported      Number
              Sample Selection Item             Object Type      Yes/No        Yes/No        Yes/No       Yes/No        Yes/No        Yes/No

19       Lieutenant Marmiez                      Painting           N             N            N             N             Y             Y
20       Viosin Aeroplane                        Painting           N             N            N             N             Y             Y
21       Wright Brothers                         Painting           N             N            N             N             Y             Y
22       Risner Statue                            Statue            N             N            N             N             N             N
23       Eisenhower Sword                        Weapon             N             N3           N             N             Y             Y
24       Musket                                  Weapon             N             N            N             N             Y             Y
25       Patch Display, STS 78 June 1996           N/A              N             N            N             N             N             Y
    Total Not Properly Recorded                                     25            25           25            25            8             9

1
 	 DD Form 1149, Requisition and Invoice/Shipping Document, is used in place of AF Form 3571 when items or gifts are transferred among
   DoD entities, instead of from a private donor.
2
 	 The aircrafts were recorded in the Air Force Historical Collection by NMUSAF. However, the USAFA Former Museum Specialist did not have
   DD Form 1149 on file at USAFA.
3
 	 At the time the Eisenhower Sword was donated, AF Form 3571 and DD Form 1149 were not used to transfer gifts. NMUSAF used a letter as the
   acceptable proffer of gifts. However, a copy of the letter was not on file at USAFA.




                                                                                                                                                 DODIG-2013-138 │ 57
Appendixes


Appendix D
Heritage Assets Not Properly Conserved
The table below summarizes the 25 heritage assets reviewed that were not properly conserved.

                                                                     Heritage
                                                                      Asset
                                                 Type of Heritage    Properly
      Location         Title of Heritage Asset       Assets         Conserved                                         Condition

                      Down at Grand Canyon       Painting              No

                      Wright Brothers            Painting              No
                                                                                We observed that these heritage assets were not protected with a casing as
                      Adobe Building 2 Horses    Painting              No       suggested by AFI 84-103. We also observed sunlight and other lighting on the
 Guest Houses                                                                   heritage assets, which can be especially harmful to the paintings. AFI 84-103
 The USAFA                                                                      suggests protective casing for almost all heritage assets to protect against mold,
                      Pre-Columbian Pottery      Ceramic               No
 Superintendent                                                                 vermin, insects, humidity, extreme cold or hot temperatures, fire, floods-water
 Housing Quarters.                                                              damage, ultraviolet lights, security lighting, and vandalism. In addition, the Japanese
                      Japanese Lantern           Stone Lantern         No       Lantern was located on the patio of the USAFA Superintendent's residence and not
                                                                                protected against inclement weather.
                      Charlie Potatoes           Painting              No

                      Viosin Aeroplane           Painting              No


                      F-16A Fighting Falcon      Aircraft              No
                                                                                We observed the heritage assets and we did not see any obvious signs of
                      Risner Statue              Statue                Yes      deterioration. Furthermore, a September 2011 NMUSAF inspection report,
 Terrazzo                                                                       which included an inspection of the F-16A Fighting Falcon and the F-4 Phantom II,
 A large square       F-4 Phantom II             Aircraft              Yes      concluded that the aircraft inspected were maintained in accordance with
 pavilion                                                                       AFI 84-103. However, the overall conclusion of the inspection report contradicts
 surrounded by                                                                  the condition of the F-16A Fighting Falcon that was described in the report. The
 USAFA main           F-105 Thunderchief         Aircraft              Yes      inspection report states: “The nose gear stand needs to be raised so the tire is
 buildings.                                                                     completely off the ground. At present the tire is touching, which has caused it to
                      F-15 Eagle                 Aircraft              Yes      break free of the wheel. The nose gear also needs to be secured to the stand. The
                                                                                nose gear strut needs a strut collar to prevent it from collapsing.”
                      WTC 9/11 Memorial          Beam                  Yes


                      Musket                     Weapon                No       We observed that these heritage assets were not protected with a casing as
                                                                                suggested by AFI 84-103. We also observed ultraviolet light on the heritage assets,
 McDermott            Lieutenant Marmiez         Painting              No       which can be especially harmful to the painting. AFI 84-103 suggests protective
 Library                                                                        casing for almost all heritage assets to protect against mold, vermin, insects,
                                                                                humidity, extreme cold or hot temperatures, fire, floods-water damage, ultraviolet
                      Pilot Wings                Badge                 No       lights, security lighting, and vandalism.


58 │ DODIG-2013-138
                                                                                                                                                           Appendixes


                                                                     Heritage
                                                                      Asset
                                                 Type of Heritage    Properly
     Location          Title of Heritage Asset       Assets         Conserved                                        Condition

Harmon Hall          Eisenhower Sword            Weapon                No
The primary
administration       Patch Display, STS 78
building, which                                  N/A                   No
                     June 1996
houses the                                                                      We observed that these heritage assets were not protected with a casing as
offices of the       Foreign Mil./Brazil         Decoration            No       suggested by AFI 84-103. We also observed ultraviolet light on the heritage assets
Superintendent                                                                  which can be especially harmful to the painting. AFI 84-103 suggests protective
and his staff. All                                                              casing for almost all heritage assets to protect against mold, vermin, insects,
the Heritage                                                                    humidity, extreme cold or hot temperatures, fire, floods-water damage, ultraviolet
assets tested                                                                   lights, security lighting, and vandalism.
were located in      D-Day Mission Returns       Painting              No
the basement of
Harmon Hall.


Fine Arts Center     Navajo                      Jewelry               Yes      We did not visit the Fine Art Center. However, this Museum is a member of the
A museum located                                                                America Association of Museum and is an accredited museum. We observed
in downtown
                     Navajo                      Jewelry               Yes      photographs of these heritage assets and they appeared to be protected against
Colorado Springs,                                                               agents of deterioration.
Colorado.

                                                                                We observed the heritage asset and we did not see any obvious signs of
                                                                                deterioration. Furthermore, a September 2011 NMUSAF inspection report, which
                                                                                included this aircraft, concluded that the aircraft inspected was in accordance with
                                                                                AFI 84-103. However, the overall conclusion of the inspection report contradicts
Air Park                                                                        the condition of the B-52 Stratofortress, BUFF that was described in the report. The
A pavilion located   B-52 Stratofortress,        Aircraft              No       inspection report states: “Both the outboard wings have corrosion on the underside.
at the North Gate    BUFF                                                       The bottoms of the engine nacelles have corrosion. There is peeling paint on the
of USAFA.                                                                       forward landing gear door and aft bottom fuselage. The top beacon is broken. The
                                                                                number 2 engine nacelle is missing a small square panel bottom. There is a loose
                                                                                panel on the aft right lower fuselage. While performing the inspection, a bird
                                                                                entered the rear of the number 1 engine.”

Fairchild Hall
The primary                                                                     We observed the heritage asset at this site was protected with a casing as suggested
                     T-33 Model                  Airplane              Yes
academic building                                                               by AFI 84-103.
at USAFA.

                                                                                The entire POW collection could not be located. Part of the collection was located
                     Humiston POW                                   Could Not   at NMUSAF. We did not visit and did not test whether the assets at NMUSAF were
NMUSAF                                           Misc.
                     Collection                                     Determine   properly conserved. The other part of the collection could not be located, and as a
                                                                                result, we could not determine whether the assets were properly conserved.


                                                                                                                                                      DODIG-2013-138 │ 59
Appendixes



Appendix E
Blue and Silver Club Membership Levels


                                                                                                                                 BLUE
    Blue & Silver Club Levels              Superintendent’s              Four-Star Club              Commander in
                                                 Club                   $1,200 per seat           Chief’s Club $7,000
                                            $700 per seat               2 seat minimum             (four seats indoor)
                                           2 seat minimum                   (indoor)




                                                                                                                                 &
                                              (outdoor)

    Tax deductible to the extent
    permitted by law




                                                                                                                                 SILVER
    Recognition in Game Day
    Football Program
    Complimentary Game Day
    Football Program




                                                                                                                                 CLUB
    Blue & Silver
                                                 Per seat                     Per seat                     Per seat
    Commemorative Gift
    Blue & Silver Pregame Buffet
                                                 Per seat                     Per seat                     Per seat
    (# of passes per game)
    Blue & Silver
    Press Box Privileges

    Climate-controlled Environment

    Personalized Reserved
    Parking, Lot #5
    Personalized Reserved
    Parking, Lot #6
    Pre-season VIP
    Party Invitation

    Official Member Lapel Pin
                                                                                                                                  BLUE & SILVER CLUB
   Receive Commander in Chief’s Club benefits for life as a $150,000 Blue & Silver Club Lifetime Member. For more information,
   please contact                                      or go to GoAirForceFalcons.com/falcon-pride.
                                                                                                                                          a proud legacy


Source: United States Air Force Academy

60 │ DODIG-2013-138
                                                 Management Comments




Management Comments
Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD Comments




                                                       DODIG-2013-138 │ 61
Management Comments



                 Under Secretary of Defense (Comptroller)/Chief
                 Financial Officer, DoD Comments (cont’d)




62 │ DODIG-2013-138
                                                 Management Comments




Management Comments
National Museum of the U.S. Air Force Comments




                                                       DODIG-2013-138 │ 63
Management Comments



                 National Museum of the U.S. Air Force Comments
                 (cont’d)




64 │ DODIG-2013-138
                                  Management Comments




Management Comments
U.S. Air Force Academy Comments




                                        DODIG-2013-138 │ 65
Management Comments



                 U.S. Air Force Academy Comments (cont’d)




66 │ DODIG-2013-138
                                           Management Comments



U.S. Air Force Academy Comments (cont’d)




                                                 DODIG-2013-138 │ 67
Management Comments



                 U.S. Air Force Academy Comments (cont’d)




68 │ DODIG-2013-138
                                           Management Comments



U.S. Air Force Academy Comments (cont’d)




                                                 DODIG-2013-138 │ 69
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                           AF Air Force
                       AFAAA Air Force Academy Athletic Association
                           AFI Air Force Instruction
                       AFMAN Air Force Manual
                      AFMATS Air Force Museum Artifacts Tracking System
                          APO Accountable Property Officer
                          CFR Code of Federal Regulations
                         CMA Development and Alumni Programs
                         DFAS Defense Finance and Accounting Service
                          FAR Federal Acquisition Regulation
                         FMR Financial Management Regulation
                         GAO Government Accountability Office
                        MWR Morale, Welfare, and Recreation
                         NAFs Nonappropriated Funds
                        NAFIs Nonappropriated Fund Instrumentalities
                      NMUSAF National Museum of the U.S. Air Force
                           RO Responsible Officer
                         SOPs Standard Operating Procedures
                        USAFA United States Air Force Academy
                       USAFAI United States Air Force Academy Instruction
                        U.S.C. United States Code




70 │ DODIG-2013-138
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
